<html>
<title> - [H.A.S.C. No. 112-30]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2012 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-30]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2012 NATIONAL DEFENSE

                     AUTHORIZATION BUDGET REQUESTS

                       FOR U.S. EUROPEAN COMMAND,

                       U.S. SOUTHERN COMMAND, AND

                         U.S. NORTHERN COMMAND

                               __________

                              HEARING HELD

                             MARCH 30, 2011


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                      U.S. GOVERNMENT PRINTING OFFICE
  65-801                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>  





                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Drew Walter, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                    Lauren Hauhn, Research Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, March 30, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Requests for U.S. European Command, U.S. 
  Southern Command, and U.S. Northern Command....................     1

Appendix:

Wednesday, March 30, 2011........................................    39
                              ----------                              

                       WEDNESDAY, MARCH 30, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FOR 
U.S. EUROPEAN COMMAND, U.S. SOUTHERN COMMAND, AND U.S. NORTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Fraser, Gen. Douglas M., USAF, Commander, U.S. Southern Command..     5
Stavridis, ADM James G., USN, Commander, U.S. European Command, 
  NATO Supreme Allied Commander Europe...........................     3
Winnefeld, ADM James A., Jr., USN, Commander, U.S. Northern 
  Command and North American Aerospace Defense Command...........     7

                                APPENDIX

Prepared Statements:

    Fraser, Gen. Douglas M.......................................   131
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Smith, Hon. Adam.............................................    47
    Stavridis, ADM James G.......................................    50
    Winnefeld, ADM James A., Jr..................................   158

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   179
    Mr. Coffman..................................................   180
    Mr. Franks...................................................   179
    Mr. Larsen...................................................   177
    Mr. Thornberry...............................................   177
    Mr. Turner...................................................   179
    Mr. West.....................................................   180

Questions Submitted by Members Post Hearing:

    Mr. Conaway..................................................   185
    Ms. Giffords.................................................   184
    Mr. Scott....................................................   186
    Mr. Turner...................................................   183

 
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FOR 
U.S. EUROPEAN COMMAND, U.S. SOUTHERN COMMAND, AND U.S. NORTHERN COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 30, 2011.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning.
    I am pleased to welcome Admiral James Stavridis, commander 
of U.S. European Command and NATO Supreme Allied Commander 
Europe; General Douglas Fraser, commander of U.S. Southern 
Command; and Admiral James Winnefeld, commander of U.S. 
Northern Command and North American Aerospace Defense Command.
    Gentlemen, thank you for being here, and thank you for your 
many years of devoted service for our country.
    Before we move to the matters at hand, I want to briefly 
address a big issue that is foremost in my mind and I am sure 
in the minds of my colleagues--Libya. The President has an 
obligation to clearly explain to Congress and the American 
people what his administration's objectives and strategy are 
for our operations in Libya. He fulfilled this obligation in 
part on Monday night, but the full House will not have an 
opportunity to be briefed until this afternoon--12 days after 
the start of Operation Odyssey Dawn.
    This committee will follow that up with a hearing tomorrow 
focused on Libya with Secretary Gates and Admiral Mullen. 
Admiral Stavridis, in his role as NATO's [the North Atlantic 
Treaty Organization's] Supreme Allied Commander Europe, is 
intimately involved in the campaign against the Qaddafi regime, 
particularly as command of the operation transitions to NATO.
    Admiral, we are certainly interested in your views 
particularly as NATO assumes command of the military mission 
today, but I plan on reserving my questions on operations in 
Libya--and there are many--for this afternoon's and tomorrow's 
briefings.
    Moving to the reason we are here today, Admiral Stavridis, 
I am concerned that the administration will seek to remove one 
or more Army brigade combat teams, or BCTs, from Europe for the 
sake of efficiencies that neglect the operational importance of 
their mission.
    I also want to highlight my concerns regarding the European 
phased adaptive approach. Missile defense is becoming a 
critical component of our relationship to our European allies, 
and we must ensure EUCOM [United States European Command] has 
the resources and flexibility to implement a robust defense.
    Moving to SOUTHCOM [United States Southern Command], 
General Fraser, in my mind the illicit trafficking threat is 
the greatest challenge we face in your geographic area of 
responsibility. It is also, I should add, one that requires 
close collaboration and coordination with your colleague at the 
table from NORTHCOM [United States Northern Command], as well 
as your interagency partners.
    General Fraser, your written statement highlights 
opportunities and challenges resulting from the activities of 
extra-regional actors in SOUTHCOM's area of responsibility. 
China, Russia and Iran have been very active in Latin America 
through arms sales, personnel exchanges, investments and trade 
deals. In addition, the activities of Hezbollah in the region 
are very troubling. The committee would benefit from your 
assessment of trends of the activities and influence of foreign 
actors in the Western Hemisphere.
    Regarding NORTHCOM, drug-related violence is one of the 
foremost national security challenges directly impacting the 
U.S. homeland, and we need to treat it as such. I laud the 
heroic efforts of Mexican security service personnel and their 
public officials, who--and make no mistake about this--are 
risking their lives and the lives of their families in the war 
against these brutal criminal enterprises.
    We need to support these heroes in this fight while fully 
respecting the sovereignty of Mexico. I look forward to hearing 
your assessment, Admiral, on the progress that is being made by 
the Mexican authorities and what NORTHCOM is doing to support 
them and build their capacity and capabilities.
    Finally, the fiscal year 2011 continuing resolution has 
resulted in the Missile Defense Agency spending $324 million 
less than is anticipated for this fiscal year. Next fiscal 
year's request reduces the ground-based midcourse defense 
program by another 185 million. These are sizable cuts. We must 
understand how these cuts impact homeland missile defense 
effectiveness, modernization, operations and development.
    Gentlemen, again, thank you for appearing before us today.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I want to join you in 
welcoming Admiral Winnefeld, General Fraser and Admiral 
Stavridis here.
    Appreciate you gentlemen's service and your presence today.
    My statement will be brief. I agree substantially with the 
issues that the chairman has raised and the ones we wish to 
hear in all three of your different commands. Obviously, in 
Southern Command we are interested in the drug trafficking, how 
things have progressed from Colombia and beyond other issues.
    NORTHCOM, your work with Mexico on similar issues, getting 
an update on that would be important. And Libya is the issue 
that is in all of our minds, which I am sure you will hear a 
great deal.
    I was joking that General Fraser and Admiral Winnefeld, you 
are very lucky gentleman, because most of the questions will be 
focused on Admiral Stavridis and take a little pressure off 
you, I suspect. But we will try to keep you involved as well.
    And also with European Command, we do not want to forget 
what is going on in Afghanistan, the role that NATO is playing 
there. I would be very curious to hear the Admiral's views on 
how that is progressing, how the support from our NATO allies 
is going in Afghanistan and where he sees that situation going.
    And lastly, one issue that has not been raised, and I think 
it is particularly important in Europe, is the relationship 
there with Russia and with Turkey, the role those two countries 
play and how our relationship with each of them is going. So I 
would be curious to hear about that a little bit.
    With that, I have a statement for the record that is more 
detailed, which I will submit, but I will yield back and look 
forward to your testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 47.]
    The Chairman. Thank you.
    We will follow in the order I introduced--Admiral 
Stavridis, General Fraser and Admiral Winnefeld.

   STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
     EUROPEAN COMMAND, NATO SUPREME ALLIED COMMANDER EUROPE

    Admiral Stavridis. Chairman, Ranking Member, thank you very 
much to all the members of the committee for offering us an 
opportunity to come and talk with you about all the important 
issues that were raised, and I am sure many others.
    I do have to point out if you get confused at any point in 
the hearing who the two fighter pilots at the table are, they 
are the two tall gentleman with full heads of hair. And, of 
course, I look at them both as potential donors in that regard. 
But it is a pleasure to be you here with two very distinguished 
colleagues, who are also very good friends.
    I would, if I may, make the observation that when I first 
came before this committee 5 years ago, I started to get to 
know Rep. Gabby Giffords. And I just wanted to comment that she 
during my time at SOUTHCOM was a true friend, and certainly all 
of us are thinking about her.
    Today, as always, it is a pleasure to be with you, as I 
mentioned. I do have a full statement for the record. If that 
could be entered, sir, I would appreciate it.
    What I would like to talk about, and very briefly, are 
three key things that U.S. European Command is focused on in 
sort of a general sense. One is military operations, one is 
partnering with our friends and allies, and the third is 
engaging with the interagency.
    In terms of military operations, if I could, I will start 
with just a word about Afghanistan. And I will do this from my 
perspective as U.S. European Command Commander and make the 
point that today in Afghanistan we have about 98,000 U.S. 
troops. We have 45,000 non-U.S. troops in Afghanistan fighting 
alongside of us. The vast majority--well over 80 percent--are 
from the European theater.
    We also have from U.S. European Command 12,000 of our U.S. 
soldiers, who are forward deployed from Europe into Afghanistan 
and into Iraq as well. So from a military operational 
perspective at U.S. European Command, we are very much in the 
operational mode as we support those kinds of operations 
forward.
    In terms of how I see Afghanistan--both the chairman and 
the ranking member mentioned this--I would say, much as you 
heard from David Petraeus, I am cautiously optimistic today 
about our progress. We have 49 troop contributing nations who 
stand with us, the largest coalition in modern history, perhaps 
in history. And today, I think, we see steady progress in the 
security sector.
    And I would particularly point to gains in the south. While 
they are fragile, as General Petraeus has mentioned, I think 
that they are indicative of the very real possibility of our 
transition to Afghan-led security forces throughout Afghanistan 
by 2014. So from a U.S. European Command perspective, we will 
continue to support that effort. And again, I would say 
cautious optimism is my watchword on Afghanistan.
    In terms of partnership with friends and allies, there are 
51 nations with whom we have mil-to-mil, military-to-military 
relationships from U.S. European Command. And just as one 
example, last year we conducted 33 exercises, 50,000 people 
involved. And these exercises are the component that allows us 
to bring these friends and allies forward into real operations 
with us.
    The interaction, the training, the coalition building that 
occurs as part of these partnerships, I believe, is 
fundamentally why we have 45,000 non-U.S. troops with us in 
Afghanistan today. And I know my geographic colleagues here 
would echo that building those kinds of relationships are part 
of conducting successful coalition operations today.
    And then thirdly, I mentioned the interagency. At U.S. 
European Command, we try very hard to support the Department of 
State as they do diplomacy, to support AID [the U.S. Agency for 
International Development] as they do development. We want to 
be a good interagency partner.
    Two quick examples. One is disaster response. Last year we 
were working to alleviate problems from wildfires both in 
Russia and in Israel. And this is an example of working with 
AID in that case.
    Another partner is the Drug Enforcement Administration. We 
have a counter trafficking center. It is a very reduced version 
of what General Fraser operates out of JIATF [the Joint 
Interagency Task Force] South in Key West, to try and get at 
some of these trafficking challenges as they move through our 
region and come back to threaten the United States.
    So those three things are the key areas in which we are 
engaged at the moment. As well, we are looking at ballistic 
missile threat and what we can do to develop the phased 
adaptive approach. We are looking at relations with Russia. We 
are looking at Israel and Turkey, important countries in our 
region. And we are also thinking about cyber and terrorism. So 
it is a very full plate for us at U.S. European Command.
    I will close, Chairman and Ranking Member, with just a word 
about Libya. One is administrative, in a sense, to simply 
clarify my role in terms of operations in Libya. From a U.S. 
perspective, those are conducted by Africa Command, headed very 
ably by General Carter Ham, who many of you know.
    My job from a U.S. perspective is to support General Ham 
and to move U.S. European Command forces forward for the 
coalition operations that have been conducted for the last 5 
weeks.
    In my NATO hat as the Supreme Allied Commander Europe, I am 
essentially the operations officer for NATO. So in that hat we 
are now taking on this mission in Libya as it is transitioning 
today with flights over Libya, with the air tasking order 
generated by NATO, and taking on the important missions that 
were outlined under the United Nations Security Council 
Resolution 1973.
    Mr. Chairman, Ranking Member, thank you for giving me an 
opportunity to lay out a few thoughts initially. I look forward 
to your questions. I would like to close by saying thank you to 
the Congress and thank you to this committee for your support 
to all of our men and women. We could not operate a single day 
without the support of this committee, and I thank each one of 
you personally, sir.
    [The prepared statement of Admiral Stavridis can be found 
in the Appendix on page 50.]
    The Chairman. Thank you very much.
    And without objection, each of your full statements will be 
introduced into the record.
    General Fraser.

  STATEMENT OF GEN. DOUGLAS M. FRASER, USAF, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    General Fraser. Chairman, thank you. Ranking Member Smith, 
thank you also, and distinguished members of the committee.
    It is my great pleasure and privilege to be here and have 
the opportunity to discuss United States Southern Command and 
our accomplishments over the past year, plus our future efforts 
in Latin America and the Caribbean.
    But first, before I continue, I would like to, as Admiral 
Stavridis did, recognize the absence of Congresswoman Giffords 
from this committee. As Admiral Stavridis said, she has been a 
stalwart supporter of United States Southern Command, of Air 
Forces Southern, and we wish her a speedy recovery.
    I am also pleased to have my wife with me today. She is a 
great partner. She is a steadfast advocate for our military 
families, and she is a remarkable representative of United 
States Southern Command and all our military spouses throughout 
our armed forces.
    [Applause.]
    I am also pleased, as Admiral Stavridis mentioned also, to 
share a table with my friends and my counterparts. Admiral 
Stavridis, my predecessor, left a real legacy of interagency 
integration. He talked about that just a minute ago in European 
Command. That legacy remains in United States Southern Command 
and is a vital part of our organization.
    Admiral Winnefeld and I have been working diligently to 
coordinate our respective activities in Mexico and the Central 
American region, as well as across our combatant command 
boundaries, to ensure that there is no disconnect and there is 
no seam in U.S. military engagement within the hemisphere.
    Over the past year, United States Southern Command worked 
in close collaboration with other U.S. federal agencies and our 
international partners to respond to natural disasters like the 
earthquakes in Haiti and Chile and to address the ongoing 
threats to regional security as well.
    This year, with the continued support of Congress, we will 
continue to promote United States' national and regional 
security interests through enduring partnerships. Much as 
Admiral Stavridis mentioned, partnerships and the building of 
partnerships remain a vital part of our mission and a vital 
role that we continue to pursue throughout the region.
    But we are really focused on two direct issues, two direct 
challenges. One is the ever present nature of natural disasters 
within the region like those we witnessed last year and then, 
Chairman, as you and the ranking member mentioned, the ongoing 
threat posed by transnational criminal organizations and the 
illicit activities they pursue.
    While we remain prepared to conduct humanitarian assistance 
and disaster relief operations whenever the need arises, 
transnational criminal organizations represent the evolving 
challenge to regional and hemispheric security.
    These transnational criminal organizations engage in 
illicit trafficking of drugs, arms, money and people across the 
porous borders throughout the region, into the United States, 
and also abroad into Africa and into Europe. They do not 
respect national sovereignty, laws, governments or human life.
    Nowhere is this more evident than in Central America, which 
is besieged by gangs and transnational criminal organizations, 
who conduct illicit trafficking with near impunity. But the 
direct result of their activity is unprecedented levels of 
violence and an erosion of citizen safety. The northern 
triangle of Guatemala, El Salvador and Honduras is the 
deadliest zone in the world outside of war zones.
    The newly formed Central American Citizens Security 
Partnership announced by President Obama last week builds upon 
the existing interagency efforts and leverages the capacities 
of partners such as Canada, Colombia and Mexico to help Central 
America respond to the challenges of organized crime, drug 
trafficking and violence. U.S. Southern Command will continue 
to support this effort.
    In closing, I would also like to thank the committee for 
your support and funding the construction of our new 
headquarters in Miami. My good friend, Admiral Stavridis, had a 
large role to play in that, and we are the beneficiary of all 
his hard work as well as yours.
    This state-of-the-art building enhances our internal and 
external collaboration. It improves our ability to conduct 
interagency operations, and it raises the quality of life of 
our personnel. So on behalf of the men and women of United 
States Southern Command, thank you for your support.
    And I would also like to close by thanking Congress and the 
members of this committee for your continued support of our men 
and women in uniform. Much like Admiral Stavridis said, we 
could not do our job without your constant support.
    Mr. Chairman, Ranking Member, thank you for your continued 
support.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 131.]
    The Chairman. Thank you.
    Admiral Winnefeld.

STATEMENT OF ADM JAMES A. WINNEFELD, JR., USN, COMMANDER, U.S. 
 NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE COMMAND

    Admiral Winnefeld. Chairman McKeon, Ranking Member Smith, 
distinguished members of the Armed Services Committee, thank 
you again for the opportunity to appear before you this 
morning.
    I will echo my colleagues on at least two points. One is 
that I am delighted to be alongside these two fine gentlemen 
this morning, including my longtime friend, Admiral Jim 
Stavridis, and my very good friend and close partner, Doug 
Fraser, in the Western Hemisphere arena.
    I also would like to echo their thoughts on the absence of 
Representative Gabrielle Giffords, who has been such a strong 
supporter of NORTHCOM and in particular NORAD [the North 
American Aerospace Defense Command] and our air sovereignty 
mission.
    As the commander of U.S. NORTHCOM responsible for the 
defense of the United States and in the case of NORAD for the 
air defense of North America, it is my privilege to work with 
the talented team of men and women executing a uniquely diverse 
set of homeland defense, civil support and security cooperation 
missions in Colorado Springs.
    Our daily efforts include countering terrorism and 
transnational criminal organizations, preparing to support our 
federal and state partners in the wake of a natural or man-made 
disaster, air defense against both external and internal 
threats, maritime and ballistic missile defense, and, of 
course, a growing focus on the Arctic.
    I would like to highlight two of these areas in advance of 
our discussion this morning. First, the tragic events in Japan 
over the last several weeks highlight the importance of being 
prepared to respond to disasters, including those providing 
little or no notice, such as earthquakes, and those involving 
accidental or intentional release of harmful substances, as in 
Japan's case their release of radionuclides.
    U.S. NORTHCOM plays a key role in our nation's response to 
these disasters, principally in support of FEMA's [the Federal 
Emergency Management Agency's] role as the lead federal agency 
providing support to the affected states by bringing either 
additional capacity or additional capabilities to bear that our 
partners may lack.
    Time is our enemy in these disasters, and we search every 
day for ways to become more agile to meet the needs of our 
partners.
    We also stress our supporting role in these disasters, and 
I am pleased to be able to report to you that we have made 
considerable strides over the last year in achieving unity of 
command and control over state and federal military forces that 
might respond together in the wake of a disaster.
    I can also report that NORTHCOM's relationship with the 
National Guard, who is such a capable partner and on whom I 
rely so much for my mission in several key areas, is superb.
    The second area I would like to highlight is U.S. 
NORTHCOM's support to the ongoing struggle to disrupt and 
dismantle the transnational criminal organizations, otherwise 
known as TCOs, that are having such corrosive effects within 
our hemisphere. We work with law enforcement agencies within 
the United States and in conjunction with U.S. SOUTHCOM in 
support of the efforts of our partner nations in the 
hemisphere.
    President Obama and President Calderon of Mexico have 
underscored our shared responsibilities as nations--on the U.S. 
side of the border to reduce drug consumption and the illicit 
flow of arms and money, and on the Mexican side to interdict 
drugs going north and to strengthen the rule of law so that 
criminals are put and kept in jail.
    The Mexican government has displayed exemplary moral, 
physical and political courage in undertaking this important 
struggle, as you pointed out, Chairman McKeon, because they 
know this is about the future of Mexico. And I take my hat off 
to them for this.
    The Mexican military has been asked by its civilian 
leadership to join with Mexican law enforcement agencies to 
support this struggle in the right way, respectful of Mexico's 
democratic ideals and the nation's commitment to the rule of 
law.
    It has been a difficult struggle, as you pointed out. Since 
December 2006, 35,000 Mexicans have lost their lives in TCO-
related violence. The criminality extends far beyond drugs to 
extortion, robbery, kidnapping and trafficking in persons.
    I salute Mexico's police and security forces for their 
courage, skill and determination and for the progress they have 
made in building institutions like the federal police and in 
taking down over two dozen of the most wanted criminals in 
their country, progress for which they do not always get the 
credit they deserve.
    Today the Mexican military is confronting concurrent 
challenges--how to counter a sophisticated, unconventional 
threat by integrating intelligence and operations, how to work 
jointly with each other and with their interagency partners, 
and how to fully inculcate respect for human rights into every 
operation.
    We know this is hard, because we have been down the same 
road, and some days we are still on the same road. So I tell my 
capable Mexican partners that we don't know it all, we have 
made our own mistakes along the way, and we seek the kind of 
engagement that helps them benefit from our experience.
    But while I always want to do more to help, I want to state 
publicly and very clearly that the first and most important 
principle we observe in this struggle is respect for Mexican 
sovereignty. We have much to offer, but Mexico is always, 
always in the lead in Mexico.
    The Mexican government has a strategy. They have defined 
with us a substantive framework to guide our cooperation, and 
they have invited us to work with them to support their 
efforts. But, again, they are always in the lead in their 
country.
    If together we can maintain our resolve, if we can be 
responsive to their requests, if we can work effectively 
together to support their operational progress, and if we can 
continue to make progress on our own side of the border, then 
we have a good chance of carrying the day against the TCOs. And 
if not, the corrosive effects of the TCOs will continue to pose 
a danger to the citizens of both of our nations.
    I want to thank you, as my colleagues did, both the 
committee and a very capable staff for your steadfast support 
for our men and women, both in uniform and in civilian clothes, 
who work hard on these and many other difficult problems every 
single day.
    Once again, thanks for the opportunity to appear today, and 
I look forward to our discussion.
    [The prepared statement of Admiral Winnefeld can be found 
in the Appendix on page 158.]
    The Chairman. Thank you very much.
    Admiral Stavridis? ``Stavridis?'' Boy, oh, boy. At last 
year's EUCOM posture hearing, you strongly advocated for 
retaining four Army combat teams, or BCTs, in Europe. You said 
that all four BCTs are required to enable both rotations in 
support of overseas contingency operations and building 
partnership capacity activities with our European allies.
    The 2010 Quadrennial Defense Review backed you up on this, 
but that final decision would be made pending a review. What is 
the status of the review? And when will the decision be 
announced? And do you still strongly support retaining all 
forward BCTs? And if not, what has changed? And what are the 
impacts if one or more BCTs is relocated?
    Admiral Stavridis. Thank you, Chairman.
    First of all, to focus on what these BCTs do, brigade 
combat teams, I think they fulfill essentially four key 
functions. They provide reassurance. They provide deterrence. 
They are essential in our training process that we spoke of 
with our partners and allies in Europe. And as we can see 
today, they are very engaged in operations, again, 12,000 folks 
forward even as we speak.
    In terms of the review, it is still ongoing. I think it is 
coming to a conclusion soon. And it is not simply focused, sir, 
on the BCTs. It is really a larger look at the overall 
structure in Europe, which as you know has decreased 
dramatically since the Cold War, coming down from some 400,000 
total troops to about 80,000 today, a 75 percent decrease.
    So we will see, I think, the results of a final look, which 
is being conducted at this point. All the inputs are in, and I 
think final decisions will be announced, I would guess, soon. 
But I don't have visibility as to when that final decision 
would come.
    Overall, I am satisfied that my input and my voice has been 
heard through the process, and I am confident that I will be 
supportive of the result that comes out when it is announced.
    The Chairman. Thank you.
    General Fraser, China, Russia and Iran have been extremely 
active in Latin America. Several left-leaning countries, such 
as Venezuela, Nicaragua, and Bolivia, have forged ties with the 
anti-U.S. leaders in Libya, North Korea, and elsewhere. 
Alarmingly, Hezbollah and other radical groups appear to have a 
growing presence in the region.
    How significant is the influence of non-Western Hemisphere 
actors in the region? And how would you assess our 
relationships in comparison? What can SOUTHCOM and its 
interagency partners do to maintain strong relationships in the 
region and counter foreign interferences?
    General Fraser. Thank you, Mr. Chairman. We see a growing 
influence, but it varies country by country, if you look at 
those external actors. But it is still primarily focused on 
political, diplomatic, and commercial relationships within all 
those countries. And that is a normal international process, if 
you will, and that in many cases, especially as we look at 
China, is a two-way street, where countries within the region 
are also looking to engage with China on a more robust basis.
    Russia's focus primarily continues to be commercial and 
diplomatic, but there are also arms sales that they are 
continuing to pursue within the region. In most cases, that is 
providing opportunities for other countries as they look to 
modernize their forces within the region.
    My biggest concern within the arms supplies that Russia is 
providing is the number of automatic weapons being provided to 
Venezuela and the potential that those could be used in other 
places, not that there is a connection to Venezuela, it is just 
the fact that they could find their ways into other hands.
    Regarding Iran, very similar, if you will, primarily 
diplomatic and commercial, in many ways from our assessment, 
looking to limit their isolation in the international community 
and also support anti-U.S. and reduce U.S. influence not only 
within the region, but also in other parts of the globe.
    Hezbollah and Hamas do have organizations resident in the 
region. I have not seen them growing in any capacity, and I see 
primarily any support that they are giving is financial 
support, principally back to parent organizations in the Middle 
East. I have not seen connections that go beyond that to date.
    What are we doing about that? We continue to engage very 
robustly with our partner militaries throughout the region. We 
have very good military-to-military relations with all those 
partners within the region. The ones that we have minimal 
relations with today are primarily Venezuela and Bolivia, and 
that is more their choice than ours. We would like to continue 
to engage with them. They are choosing not to engage with us.
    The Chairman. Thank you very much. And we are happy to have 
your wife here with you today.
    You are more than welcome. Thank you.
    Admiral Winnefeld, how are the Mexican security services 
doing in their fight against these viciously violent 
transnational communist--or criminal organizations? What is 
NORTHCOM doing to support them and build their capacity and 
capabilities, while maintaining an appropriate respect for our 
sovereign neighbor? Is there something more that this committee 
can do to help regarding either resources or statutory 
flexibility?
    Admiral Winnefeld. Thank you, Mr. Chairman. First of all, I 
would say that it is important to understand, as we all do, 
that the Mexican security services are up against a very 
sophisticated, very ruthless, and very well financed threat, a 
series of threats, actually, several different organizations.
    I did a check recently, and I think most of the assessments 
are that about $40 billion flows across our border each year 
into Mexico to sustain these transnational criminal 
organizations. And even though they are not military forces, if 
you took that $40 billion and ranked it among the world's 
militaries, it would come in in the top ten for the amount of 
money that is potentially supplying these organizations. So it 
is a well-financed threat, largely by our drug demand in the 
United States.
    So the Mexican security forces, the security police, the 
military are up against a very, very sophisticated and a 
ruthless threat. I give them a great deal of credit, though, 
because they are undergoing some very difficult 
transformations.
    They have taken a force that was a very conventional force, 
that candidly was mostly focused on support for natural 
disasters, and they are gradually transforming this--and I 
would say very successfully--into a force that is capable of 
very regular operations against this sophisticated threat.
    It is a long journey. We have been on the same journey 
ourselves over the last 10 years. And it is difficult to 
transform. And they are doing a good job.
    I would say that they have had some serious successes in 
the last 16 months or so. They have taken down 28 of the major 
criminals, lead criminals, inside Mexico. Most recently, their 
takedown of some of the people who were involved in the murder 
of Agent Zapata down in Mexico was actually a very 
sophisticated operation that was quite impressive by our 
standards. So I think they are coming a long way.
    As in any struggle like this, things are probably going to 
get worse before they get better, and we are seeing that with 
the violence in Mexico, not only TCO-on-TCO violence, but 
violence that is basically an outgrowth of the fact that the 
Calderon administration has taken such a courageous stand 
against these organizations.
    At NORTHCOM, we do everything we can to help our partners. 
We have great respect for their sovereignty. And in that light, 
I would leave it to the Mexican authorities to disclose any of 
the particular details of the support that we provide.
    But in general, it is sharing the lessons learned that we 
have learned so hard over the last 10 years of similar 
struggles elsewhere in the world from which our Mexican 
partners can benefit. And I would include in that how you do 
planning, how you do special operations, and also how you 
carefully observe human rights.
    We have a very good partnership with our friends in Mexico, 
and I have great respect for their efforts, sir.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I just have two questions. The chairman actually covered a 
number of the questions that I was interested in. The first one 
is on actually behalf of Congresswoman Giffords. I am trying to 
ask her questions, get her issues in as the ranking member here 
until she is able to come back.
    And I thank you, gentlemen, for your kind words on her 
behalf. She is doing much, much better, and we are all looking 
forward to her return.
    And I was down in her district last week, down at Davis-
Monthan and Fort Huachuca. And she has one specific question, 
as I think both the SOUTHCOM, NORTHCOM people know, and that is 
about the Air and Space Operations Center.
    The 612th is at Davis-Monthan, which is responsible, 
General Fraser, for the Southern Command. The 601st is in 
Florida and is responsible for the Northern Command. And the 
Air Force has made the decision and the military has made the 
decision to combine the two.
    And there are a number of questions about that. I had the 
opportunity to spend some time down there and visit the center 
they have at Davis-Monthan. And it is very impressive. It is 
being updated as we speak and seems like a very capable center. 
And, obviously, they are worried about losing that, in terms of 
how that combination is going.
    So a couple of questions about that. First of all, 
Congressman Giffords' staff has requested from the Air Force 
sort of an analysis of this issue. How is it going to work to 
combine two operation centers in that way? And what are the 
criteria that the Air Force and the two commands are going to 
be weighing to determine which one wins, if you will? She has 
not yet received that from the Air Force.
    So if you could work with perhaps both of your commands 
with the Air Force to get that analysis of that to her office 
and to mine, that would be very helpful.
    And then, second specific question on that--and it is for 
both of you, actually--what are the factors that you are 
weighing in terms of determining what the best place to do this 
would be? And then, also, how do you think it is going to work 
having two separate commands with the same operation center?
    General Fraser. Ranking Member Smith, if I could start, it 
is a discussion that is still within the Air Force, and it 
really relies primarily within the Air Force, as they are 
working their way through to answer many of the questions that 
you are asking. The capability that is resident in Air Force 
South is very significant.
    But I am also comfortable, as the Air Force works its way 
through this, that they understand our needs. And I have had 
that discussion with the chief of staff of the Air Force, as 
well as the commander of Air Combat Command, and they are 
working to make sure that our needs, not only when it comes 
time for crisis, but also as it supports our training and our 
exercise requirements, that they are integrating those into 
their matrix as they determine how best to support this 
command.
    The benefit, as I see also, though, is that Air Force 
South's staff will remain a part of Southern Command. It is not 
a combination completely of the two organizations. And as a 
result, we have an Air Force component that is focused and 
dedicated on continuing to build relationships with our partner 
Air Forces within the region.
    So I don't have the specific analysis either. The Air Force 
is still working its way through that. I still understand that 
it will be a little bit of time before they come to an answer 
on that.
    Mr. Smith. It would be good to see that, because my 
concern, as I was down there--and forgive me, I am forgetting 
for the moment the general's name who runs the base--Lieutenant 
General Spears, who showed me around--they have incredible 
capability there.
    I happened to be there when the President was down in the 
SOUTHCOM region, so they were showing me all that was involved 
in planning for that, all the technology and capability that 
they have there. It also has some flexibility to be a center 
for other, you know, contingencies, if those come up.
    So I think it is an incredible capability that we would 
hate to lose after having built it, and I would be very, very 
interested in getting the criteria. You know, what is the Air 
Force weighing in terms of what they need in a joint operations 
center?
    Because that is not clear at this point how they are going 
to put this together, and I and my staff have some concerns 
that criteria that might not be the most important from an 
operational standpoint, but could be from a budgetary 
standpoint, might be given higher priority than we would like, 
so I would love to see what the criteria are.
    Admiral Winnefeld, if you had anything to add on that?
    Admiral Winnefeld. Yes, sir. We will work together to ask 
the Air Force to provide those criteria. They have their own 
criteria that they are using. And I don't have full visibility 
on those at the moment.
    I would say that both of those air operations centers are 
very capable centers. The one at Tyndall Air Force Base, of 
course, which is the NORAD region operations center, is very 
capable and has excess capacity and that sort of thing as well.
    The things that matter the most to me are that NORAD has a 
daily vibrant mission in which literally many time-critical 
decisions are made on a daily basis that affect the security of 
this country from both external and internal threats. So in any 
case, whichever way the decision falls, I would want to make 
sure there was minimal disruption in our ability to execute 
those daily decisions.
    I would want to make--one of the things that is important 
to me is that my commander, whose base is there in Tyndall, is 
able to have rapid access to his air operations center in case 
he needs to be the one making those split-second decisions.
    And it is very useful for me to have the National Guard, 
frankly, running that operations center, because they bring 
such an extended timeframe of deep experience that is embedded 
in that center over a course of years, rather than a constant 
inflow and outflow of people.
    Having said that, I would tell you that General Fraser and 
I have discussed this. We are comfortable that either way this 
decision goes, we will be able to manage it and that we will 
work very closely together to bend over backwards to make sure 
that the other guy is supported, you know, whoever absorbs the 
other's center.
    Mr. Smith. Thank you. I appreciate it.
    General Fraser. And, Congressman, if I might, I have had 
this similar discussion with General Schwartz, as well as 
General Fraser, the Commander of Air Force Combat Command. And 
I am confident that they understand our requirements and are 
working very diligently to meet those requirements as they look 
at this design.
    Mr. Smith. Thank you. I appreciate that. I will actually 
hold the other question that I had for the end. That took a 
little longer than I expected, so I will yield back to the 
chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Gentlemen, thank you very much for your long 
service to our country.
    Our founding fathers were very well acquainted with the 
exercise of the king's army. And so it would be expected that 
they would want to preclude any such use of the army in the new 
country that they were establishing. And so it is no surprise 
what we find in the Constitution.
    In Article I, Section 8, which describes the prerogatives 
of Congress, it says Congress shall have power to declare war, 
to make rules for the government and regulation of the land and 
naval forces, to provide for calling forth the militia to 
execute the laws of the union, suppress insurrection, and repel 
invasions.
    And then in Section 2 of the Constitution--Article II of 
the Constitution, where they define the responsibilities of the 
President, there is only one brief reference to the 
relationship of the President to the military, and that is in 
Section 2 of Article II.
    And it says there the President shall be the Commander in 
Chief of the Army and the Navy of the United States and of the 
militia of the several states when called into the actual 
service of the United States. That calling into service is the 
prerogative of Congress, you note, from Article I of the 
Constitution.
    In 1973, during the height of the Cold War, it was clear 
that there had to be some interpretation of the intent of our 
founding fathers, because Congress clearly would not have time 
to be convened to declare war, if we were attacked by the 
Soviet Union. And so our two houses drafted the War Powers 
Resolution.
    And in it, it said it is the purpose of this joint 
resolution to fulfill the intent of the framers of the 
Constitution of the United States. I see this as kind of a 
recapitulation of the Constitution of the United States.
    But to make the intent of our founding fathers consistent 
with the reality of 1973, they said that the President could 
call our armed forces into combat under three circumstances: a 
declaration of war; specific statutory authorization; or, 
three, a national emergency created by attack upon the United 
States, its territory or possessions, or its armed forces--this 
third, of course, relevant to the Cold War and the threat of a 
bolt out of the blue that everybody quite expected could happen 
then.
    Then, Section 3 of that says the President in every 
possible instance shall consult with Congress before 
introducing United States forces into hostilities or into 
situations where imminent involvement in hostilities is clearly 
indicated by the circumstances.
    Help me understand which of these three were invoked in 
committing our troops to the military and why no time was 
available to consult Congress when there was plenty of time to 
consult with the United Nations and the Arab League.
    Do we now, in fact--and this isn't the first President, by 
the way, that--by the way, the War Powers Act was passed over 
the veto of the President. That means that more than two-thirds 
of the Senate and the House, supported by their constituents, 
believed that this ought to become the law of the land.
    This isn't the first President to use the military, I 
think, in violation of the Constitution and of the War Powers 
Act. What is your understanding of which of these three 
circumstances, situations in the War Powers Act is relevant to 
our involvement in Libya?
    Admiral Stavridis. Congressman, I have not analyzed that 
aspect of things. And I think, frankly, the question would be 
best referred to the Department of Defense and potentially to 
the White House. I mean, it sounds to me like it is an issue 
under discussion between the executive and the legislative 
branch.
    My focus--if you are referring specifically to Libya--as a 
U.S. Combatant Commander, my job was to provide forces for 
General Carter Ham, who is the AFRICOM [United States Africa 
Command] commander, who then employed those forces. From a NATO 
perspective, I operate under a distinctly different chain of 
command, and the authorities would be completely different.
    Mr. Bartlett. Appreciate your response, and thank you very 
much.
    Yield back.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, welcome, and thank you for your service and 
for doing a great job in your respective positions, which at 
this point are vital and critical to our national security.
    I was on a trip with the chairman and Congressman Kline. We 
visited Pakistan and Afghanistan and then stopped at NATO 
headquarters. And for the members, I would strongly recommend 
that, when you visit Afghanistan, you stop in NATO, because the 
admiral and the ambassador can really add to the visit and give 
you a good perspective on the critical role of NATO and the 
things that are going on.
    I don't know if you want to comment.
    Admiral Stavridis. I would just very much echo that. And it 
is a very logical stopping point coming in or out of 
Afghanistan, Iraq, Pakistan. We would love to have you and have 
a chance to show you how the alliance is engaged in this. And I 
thank you for mentioning that, sir.
    Mr. Reyes. Thank you.
    And for General Fraser and Admiral Winnefeld, I just was 
part of a trip last week that went through--well, we went to 
Colombia, Panama, Guatemala, and Mexico. And I would appreciate 
if you would comment--and I know, General Fraser, I think it 
was you that mentioned the triangle of concern, which includes 
Guatemala--if you would comment on the challenges that we are 
facing there.
    Ambassador McFarland expressed his concern about the 
situation in Guatemala and the kinds of challenges that that 
government is facing as a result of the drug trafficking 
organizations now using it as a staging area and a 
transshipment area.
    Panama as well is kind of the crossroads where those 
organizations decide which way they are going to bring 
narcotics into the U.S., whether the Caribbean through Mexico 
or along the Pacific.
    So if both of you would comment on that, I would appreciate 
it. I think it would be very important to get your perspective.
    General Fraser. Thank you, Congressman Reyes. Let me step 
back, if I could, for just a minute and then explain the issue 
as I see it. And it is a very nontraditional military 
requirement and concern, because it is an irregular force in a 
transnational criminal organization.
    Our roles are very limited, but what we see from a cocaine 
standpoint--and I will talk specifically cocaine--the majority 
of cocaine is still produced in the northern part of South 
America in the Andean Ridge.
    It transits up along the east and west coast of Central 
America and first makes its first stop somewhere along that 
isthmus--Panama, Costa Rica, some in Nicaragua, primarily right 
now in Honduras, about 40 percent of it, and then into 
Guatemala.
    Once it arrives on land, then it continues to transit up 
through the isthmus of Central America into Mexico and then 
into the United States across the southwest border. We estimate 
that roughly about 60 to 65 percent of the cocaine that is 
produced transits that route.
    How that manifests itself within Central America, then, is 
in increasing episodes of violence. And my best way to describe 
that is if we use U.N.-based figures, in Iraq last year the 
homicide rate or violent death rate was 14 per 100,000. In 
Guatemala last year it was 48 per 100,000. If you go to some 
specific cities, Guatemala City, it would approach 100. In 
Honduras it was 77 per 100,000. In El Salvador it was 68 per 
100,000.
    We continue to work with Northern Command, with our partner 
militaries and our interagency partners, because the real 
solution for this is an interagency-the Department of State has 
a Central American region security initiative working not only 
to support our militaries, but law enforcement as well as 
judiciary and bring up the capacities within those countries.
    And it is us all working together on a regional basis that 
we will address that problem. And those are the efforts that we 
are taking on today.
    Admiral Winnefeld. I would add, sir, that, you know, the 
complexities of that region are enormous, particularly the 
Mexico-Guatemala-Belize border region, and General Fraser and I 
work very closely on that region to understand the complexities 
and to look at the way ahead for addressing them.
    I would say that my Mexican partners are very 
sophisticated. They are very aware of what is happening down 
there. They are approaching this strategically. They know that 
they need to get at that problem.
    They have a capacity issue, for one thing. They do not have 
a huge military, and they have their hands full right now in 
the northeast in places like Ciudad Juarez and Monterrey, and 
they want to get that violence under control as best they can 
before they really open another front. And I respect them for 
that.
    We are working to see if there is any way that we can help 
them down there. And in fact, General Fraser and I, again, work 
closely together on that very, very complex region.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Admirals, General, thank you for your service. I share 
the concerns of Chairman McKeon and Congressman Bartlett over 
the new war that America is in in Libya, but today it is budget 
request. But we need to address the concerns of the American 
people concerning Libya, I think, as soon as possible.
    Admiral Stavridis, there are success stories, and I 
appreciate you bringing up in Afghanistan that there are now 
45,000 troops largely from NATO. And I have had the privilege 
of meeting with troops from Bulgaria, Romania, and Slovakia. It 
is really encouraging to see this, and the American people need 
to know how we do have a 49-nation coalition of real troops 
involved from such remarkable places as Mongolia.
    With that in mind, could you tell us what are the 
contributions of the troops? The American people need to know 
when there is success.
    Admiral Stavridis. Thank you, sir. I would also throw out a 
couple of other interesting countries that are in this--Tonga, 
El Salvador, as well as all of our kind of traditional 
partners, and we are also in discussion with other nations. 
This really has become a global effort.
    In addition to the 49 countries with troops there, there 
are actually a total of well over 80 countries that are 
contributing financially to develop Afghanistan.
    In terms of what our partners are doing, the first thing I 
would mention is that they are taking casualties. They are in 
this fight. Tragically, we have lost about 1,400 of our fine 
young men and women in Afghanistan.
    We have 98,000 U.S., 45,000 Allied, so two-to-one, you 
would expect the allies would have lost about 700 killed in 
action. The allies have lost 900 killed in action, so they are 
suffering casualties at a higher rate per capita than we are 
here in the United States in many instances.
    They are also bringing very specific skills across a range 
of areas, and the one I would highlight for the committee today 
is training. If you think about how we are going to succeed in 
Afghanistan, I believe we will train our way to success.
    We are beginning a transition this summer that will run 
through 2014, and I believe that the ability to make that 
transition is dependent on effective Afghan security forces. 
Today there are 275,000 of them.
    They are being trained very much by the U.S., but also by 
our coalition partners, who bring discrete skill sets at 
everything ranging from orienteering to aircraft maintenance. 
And so this training effort, led by Lieutenant General Bill 
Caldwell--many of you have met with General Caldwell--is an 
area in which we are encouraging our allies to bring additional 
forces.
    And here I would highlight both the Canadians and the Dutch 
have recently increased the numbers of troops that they are 
going to commit to the training mission. So that would be the 
one that I would particularly draw a line under, in addition to 
the work around the nation in the patrolling.
    Finally, in a command-and-control sense, although we all 
know General Petraeus is our commander, his deputy is British, 
his chief of staff is French. As you look around Afghanistan to 
the leaders in each of the regional command areas, Kabul is 
commanded by a Turk. In the far west we see an Italian in 
command. In the north we see a German in command, in addition 
to U.S. commanders in the south and the east.
    So in command and control, in casualties, in many discrete 
missions--I would highlight training in particular--I think the 
contributions of the allies are noteworthy and part of, I 
believe, my cautious optimism for success in Afghanistan.
    Mr. Wilson. And for peace in the future, American forces 
working together, the interoperability, people need to know how 
positive this is going to be.
    Another success I saw with Congresswoman Madeleine Bordallo 
was to visit the new bases of MK [Mihail Kogalniceanu] Airbase 
in Romania, Novacella in Bulgaria, first time in the 1,225-year 
history of Bulgaria that they have invited a foreign military 
presence. What is the status of those bases?
    Admiral Stavridis. Both of them are part of our training 
programs and are very effective for us to move rotational 
forces to engage with not only the troops of those nations, but 
other troops from Eastern Europe, the Baltics and the Balkans, 
so very much part of our training infrastructure in Europe in 
nations that are very supportive of our missions in 
Afghanistan, in Europe and in the alliance.
    Mr. Wilson. Thank you very much.
    Admiral Stavridis. Sir.
    Mr. Wilson. And appreciate all of your service.
    Admiral Stavridis. Thank you, sir.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you.
    And, gentlemen, thank you so much for being here. Thank you 
for your service as well.
    Admiral Stavridis, I wonder if you could talk a little bit 
about the concerns that we all feel in terms of our economic 
situation, but more particularly in terms of our European 
allies. Clearly, they have been affected by the economy in 
their countries, and so there are demands put on them.
    And I am wondering if you are worried at all about NATO's 
readiness due to any European cutbacks or of other allies.
    Admiral Stavridis. Thank you, Congresswoman. I would start, 
actually, with some good news, and then I will move to the bad 
news.
    The good news is that our European allies, although they 
are, like the United States, going through economic challenges, 
they have great resources. The GDP [gross domestic product] of 
Europe is about $14 trillion, very similar to that of the 
United States, so if you put United States' GDP and Europe's 
GDP together, about $28 trillion to $30 trillion, which is 
roughly half of the global GDP.
    So the point is we are lucky that our close allies in 
Europe live in prosperous societies, who can contribute to 
defense.
    Now, the bad news is that many of our allies are not 
meeting the NATO standard of spending at least 2 percent of 
their GDP on defense. And so some are--the United Kingdom and 
France and Turkey and Greece--and a handful are, but the 
majority are not. So I am worried.
    And I believe that we here in the United States, because we 
pay a much higher percentage of our GDP for our defense, need 
to be emphatic with our European allies that they should spend 
at least the minimum NATO 2 percent.
    At the military-to-military level, I carry that message 
often, emphatically and very directly, frankly, not only to 
military counterparts, but also to political actors in each of 
the nations in the alliance.
    Mrs. Davis. Is there a concern as well that the plate is 
just getting too full as well for NATO?
    Admiral Stavridis. I think that is a concern everywhere 
today. And again, in my view a minimum spending goal of 2 
percent is very reasonable, and one that, broadly speaking, the 
allies should be able to support.
    So I will continue to press that emphatically. Secretary 
Gates pushes that very emphatically. Secretary Clinton pushes 
that very emphatically. And we are all leaning forward to make 
sure our allies do the right thing in this regard.
    Mrs. Davis. Thank you.
    Could you turn for a second to the potential cooperation 
between the U.S. and Russia and any changes that you are seeing 
in terms of their military modernization efforts and how that 
is affecting the EUCOM environment, the AOR [area of 
responsibility]?
    Admiral Stavridis. Yes, ma'am, I can. In terms of where we 
are cooperating with Russia, there is actually a wide spectrum 
of activities, some of which you may not generally be aware of. 
One is piracy. Russia is operating ships off the coast of 
Africa that are working very closely with NATO and European 
Union ships, along with those of other nations.
    Another area is counterterrorism. Russia has been subject 
to many terrible terrorist attacks, and we are cooperating with 
them in that regard. Counternarcotics, Russia has a very 
disturbing opium and heroin addiction problem, and we are in 
constant dialogue with them to try and see how we can work 
against the trafficking of heroin in particular, which comes 
from Afghanistan.
    We also, as we know, recently signed an arms control 
agreement with Russia.
    And then, finally, I would add----
    Mrs. Davis. And I guess can you go on to the bad news?
    Admiral Stavridis. Yeah, as always, there are going to be 
areas where we don't agree with Russia. The situation in 
Georgia is one of those, for example, where we stand for the 
territorial integrity of Georgia.
    But I think, on balance, overall, certainly compared to the 
Cold War--and, I would argue, compared to 3 or 4 years ago--
these zones of cooperation are, in fact, in place and 
expanding. The one we are looking to and exploring is missile 
defense, and that is out in the future, but it is certainly 
part of the dialogue today between the United States and 
Russia.
    Mrs. Davis. Thank you very much.
    If I could just very quickly, Admiral Winnefeld, on the 
Merida Initiative, which we know is now not--well, I guess the 
initiative really ended in fiscal year 2010. And we now have 
another security assistance program beyond Merida. How 
important is that assistance?
    Admiral Winnefeld. I think the Merida program is very, very 
important. And there has been some criticism lately that we 
haven't delivered fast enough. And part of that has to do with 
simple physics, and that is, if you are going to buy a 
helicopter, the helicopter is on an assembly line and it takes 
a while to get that helicopter built.
    And I would also add, though, that Secretary Gates has 
accelerated, by the way, the program for some of these 
helicopters to Mexico, which I think is a very helpful step.
    But helping our Mexican partners with equipment is one of 
many things that we would like to do with them, including 
sharing our experience over the last few years, things that we 
have learned. But the equipment is certainly important. 
Particularly mobility, helicopters, night-vision goggles, that 
sort of thing is really priceless to be able to help our 
partners with that kind of support.
    Mrs. Davis. Thank you.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, thank you for your leadership and for your 
service. I appreciate your being here before us today and 
discussing these very important issues.
    I wanted to echo what Mr. Wilson has said and our chairman 
about concerns of the operation in Libya. It is a mission that 
I am concerned as to whether or not its goals are clear. And 
also, I am a little concerned and believe it is unclear as to 
who we are supporting in this conflict.
    But I know that is not, as Mr. Wilson had said, the subject 
matter of this hearing, and we are going to continue to pursue 
that issue later today. But I do think it does need to be 
acknowledged as the concerns of this committee as we go 
forward.
    I would like to talk--Admiral Stavridis, you were talking 
about the issue of the drug trade, the effects of the problems 
in Russia. I appreciate that you and I last month had an 
opportunity to meet during my trip to NATO and in Brussels. I 
appreciate your discussions there about the drug trade.
    So I would like to revisit that with you. General Petraeus 
has indicated that, you know, one-third to perhaps, you know, 
40 percent of the Taliban's funding comes from the drug trade. 
So intuitively, we believe that if you can reduce the drug 
trade, we can reduce the money that buys weapons and explosives 
that fund the insurgency.
    However, the to-do list of how we address this problem 
extends well beyond the Department of Defense. With your prior 
experience, I would like to know, you know, how do you believe 
that we are in doing in going after this problem? And are we 
hampered by Department of Defense or NATO limitations in 
counternarcotics missions?
    And also, General Fraser, you know, there are differing 
viewpoints about whether the counter-drug strategy in the 
region has been successful as touted. From your perspective, 
what have been the successes, the challenges, and shortcomings 
of the regional counternarcotics efforts?
    Admiral.
    Admiral Stavridis. Thank you, sir. And thank you for your 
visit to NATO and for your work with the parliamentary 
assembly, as well.
    I would start by putting some numbers on this. Afghanistan 
today produces about 80 percent to 90 percent of the world's 
poppy, which is then turned into opium and then ultimately into 
heroin, which is highly addictive.
    In Russia alone last year, 30,000 young people between the 
ages of 16 and 24 died of heroin overdoses. There is a 
significant heroin problem throughout many other nations in 
Europe, and it flows across to the United States. So there is a 
human cost to this.
    Secondly, as you alluded to, sir, Taliban financing comes 
out of this, probably $100 million to $200 million. And so that 
funding stream goes back and directly contributes to our losses 
in Afghanistan.
    And then, thirdly, all along that route, there is 
corruption and there is crime, as the drugs move from 
Afghanistan through Central Asia, through the Baltics--
correction, the Balkans--and into the user patterns both in 
Russia, Europe, and ultimately in the United States.
    It is very similar to what I learned of about cocaine in 
the Americas. This, of course, is heroin.
    What we are doing about it is to establish a counter-
trafficking effort that is multi-agency, if you will, and 
really is there to support the DEA [Drug Enforcement Agency], 
as they take the lead on this.
    But our ability to bring surveillance, to bring 
connectivity, to develop analysis, all of that muscularity that 
we have, similar to what Doug is doing at the Joint Interagency 
Task Force South, we are trying to do in U.S. European Command 
so that we can reduce these drug flows for all the reasons I 
just described.
    It is a significant challenge, but we are starting to see 
some impact. And in fact, in Afghanistan, where we start this 
supply chain and we see Afghans in the lead, but NATO 
supporting, we have seen a reduction in the production of poppy 
and, therefore, of opium and heroin by about 20 percent over 
the last 2 years. So we are starting down the path.
    In the end, in any problem like this, you have to attack 
the demand side, as well as the supply side in the transit 
zone. There is no silver bullet. You kind of have to go at all 
three of those, and we are attacking all three in an 
interagency way.
    General Fraser. Congressman, my discussion is very similar, 
as you look at Latin America and the effort that we have had 
ongoing over a number of years to address the counter-drug 
issue. We have kind of grown that into a counter-illicit-
activity issue, because we find they all are interrelated. It 
is drugs; it is weapons; it is finance, bulk cash, all those 
flowing back and forth.
    We focused very significantly on Colombia, primarily 
because there was a terrorist issue there, also, with the FARC 
[Revolutionary Armed Forces of Colombia], and it has now become 
a narcoterrorist issue, as they have now used narcoterrorism or 
narco capability to finance their capacity.
    But if you look at Colombia today, where Colombia was 10 
years ago, largely on the shoulders of the Colombians, there 
has been significant progress there. Homicides are down almost 
50 percent. Kidnappings are down 90 percent. They are largely 
controlling their entire country, where there were pockets 
where they were not before. The aviation capacity that used to 
emanate out of Colombia into the United States has been 
removed. They have shifted to other places.
    And if you look at the effort combined with JIATF South of 
working in the transit zones, along with our law enforcement 
partners who work with law enforcement throughout the region, 
the impact in the United States over the last 10 years is the 
price of cocaine has gone up 75 percent, the purity has gone 
down 30 percent. There is still a big demand problem in the 
United States, and it kills 38,000 people a year. It is an 
issue we need to address.
    What have we not done----
    The Chairman. If you have more, would you please get it to 
him on record?
    [The information referred to can be found in the Appendix 
on page 179.]
    General Fraser. Yes, sir.
    The Chairman. We are a little over time there.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    First, for Admiral Winnefeld, I am going to look north a 
little bit here. Last year, the Olympics were held in 
Vancouver, and NORTHCOM participated in Olympic coordination 
center activities for security issues. And I was curious. What 
operational lessons has NORTHCOM taken from that? And how are 
you continuing to support these northern border enforcement 
activities?
    I note in your testimony it said 22 percent of available 
resources out of Joint Task Force North are devoted to the 
northern border. Can you talk about quickly--I have got a few 
other questions--about those lessons? And then within the 
restrictions of Title 10, how are you continuing to support 
northern border enforcement?
    Admiral Winnefeld. Your first question, as far as the 
Olympics, I think we took a lot of good, solid lessons out of 
that, and I would be happy to provide some of those for the 
record.
    [The information referred to can be found in the Appendix 
on page 177.]
    Admiral Winnefeld. I think most importantly was just the 
close cooperation that we have between U.S. Northern Command 
and Canada Command. My partner, Walt Semianiw, up there and I 
are very close. We have a Canadian-U.S. civil assistance plan, 
where U.S. military is able to support Canadian military and 
vice versa under the imprimatur of our two--State Department 
and their Ministry of Foreign Affairs.
    So that was a very good news story. And it has really 
brought out lessons that we could potentially use in a future 
disaster, either in support of Canada or the U.S., so very 
positive.
    In terms of the northern border, 4,000 miles of very 
difficult territory. Since 2008, we have provided about two 
events per year that are about 30 days per event. I think we 
spent around $1.8 million or $1.4 million over the last few 
years on that.
    I would candidly tell you that, in that time, we have 
managed to assist in the apprehension of 181 pounds of 
marijuana, which is about the same amount that an ultra-light 
drops at any given night coming across the southern border.
    At the same time, JTF [Joint Task Force] North has done 
exceptional work on the southern border. I think in a 2-month 
period from November through January, they assisted in the 
apprehension of around 17,000 pounds of marijuana and assisted 
in the apprehension of the suspects that killed Agent Terry on 
our side of the border.
    So we have to consider this as an investment strategy. We 
do continue to support our interagency partners on the northern 
border with radar, ground sensors, and that sort of thing, and 
we will continue to do so.
    Mr. Larsen. Yes, and I understand the balance that you have 
to meet, because clearly from the testimony and from questions 
here the issues on the southern border are much more difficult. 
But we live, you know, we live where we live and certainly want 
to--to the extent that you can continue supporting that 
cooperation, appreciate it.
    But your testimony also covered the Arctic, and I was 
curious what you would do differently than the U.S. Coast Guard 
and what would you share with the U.S. Coast Guard. I also note 
in your testimony your commander's estimate is done, it sounds 
like, for the Arctic. Can you tell us where you are on that one 
and when we can expect something?
    Admiral Winnefeld. We are working very hard on a 
commander's estimate, really good progress. I really benefit, 
by the way, inside my command by having 125 Canadians there 
with an integrated staff. It not only allows me to benefit from 
their expertise in the Arctic, which is considerable, but it 
also enables me to have true transparency with my Canadian 
partners in that regard, so there is no suspicion going back 
and forth.
    So we are making great progress on that. We have pretty 
much settled on the primary themes being defense, security and 
safety with international cooperation to peacefully open the 
Arctic, you know, to assist in that as best we can without 
militarizing the Arctic. I also have a partner at the end of 
the table in U.S. European Command, who has got a vested 
interest in things in the Arctic going well as well.
    One of the interesting things that we will be approaching 
within our own process is the notion of working cooperatively 
with Canada so that we can ensure that the capabilities that we 
may invest in as the Arctic opens up are done in a 
complementary fashion rather than a redundant fashion so that 
we can both be more efficient. And I think that is a good news 
story. If we can carry that ball down the field, it would be 
very helpful.
    And then in terms of our own internal U.S. military sorts 
of things, we work closely with the Coast Guard, and we work 
with the various services, in particular the Navy, who has had 
a very good positive effort and progress to study what the 
future needs are for the Navy in the Arctic.
    And I think we have got some work ahead of us, frankly, 
what kind of capabilities we are going to need, but I think we 
have a good understanding of the gaps in capability that will 
become apparent as the Arctic opens.
    Mr. Larsen. Yes, and I think the reason I bring that up is 
because, obviously, the Coast Guard does as well, has a good 
understanding of the gaps. To the extent that we are not being 
redundant among our own services, but rather investing 
together, I think will be better for the taxpayers.
    Thanks.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you for being here.
    Admiral Winnefeld, I am concerned about the effects of 
budget constraints on the GMD [Ground-based Midcourse Defense] 
program. First of all, the 2011 budget requests reduce GMD 
funding by about $185 million from the fiscal year 2011 for a 
total of about $1.16 billion, which is obviously designed to 
sustain the 30 GBIs [Ground-Based Interceptors] that we have in 
Alaska and California, as well as the other GMD programs.
    And I guess the first part of the question is are 30 GBIs 
enough, or is it time to reassess supply, given the potential 
need to do some additional testing?
    I also understand that current 2011 budgets left the GMD 
program operating with a budget that is really $324 million 
less than was anticipated for 2011. Part of that, I am sure, is 
the CR [Continuing Resolution] and some of the other challenges 
that you are dealing with, and I apologize for that on behalf 
of Congress.
    And I know that there are some recent flight intercept test 
failures that are adding to the challenge. I guess I just want 
to make sure that we know that you have enough funds to 
successfully implement an effective GMD that will not fail when 
the rubber hits the road.
    Admiral Winnefeld. Thank you, sir, for that question. First 
of all, the funds, of course, go to the Missile Defense Agency, 
and I am the operator of that system, the trigger-puller, if 
you will. But it goes without saying that I would pay very 
close attention to the health and future of the ballistic 
missile defense system that we have.
    Regarding the budget, I would say that my very good 
partner, General O'Reilly at the Missile Defense Agency--I 
believe he would say that most of those funding reductions are 
based on efficiencies and that it is just good work on the part 
of his internal staff to try to squeeze as much out of that----
    Mr. Franks. I just met with him, and so that is part of the 
reason for the question.
    Admiral Winnefeld. Right. I would say that the 2012 budget 
is going to do some very important things for me. One, it is 
going to procure some additional radars, the AN/TPY-2 [Army 
Navy/Transportable Radar Surveillance] radars that will give us 
more situational awareness forward. It will provide an East 
Coast communications node for us that will increase the 
accuracy of our missiles, and it is going to keep the GBI line 
open, which I think is very important to me, because it gives 
us more options for the future as we study these.
    I would also add there is a good, robust intellectual 
effort going on within the Office of the Secretary of Defense 
led by the Under Secretary of Defense for Policy that is 
bringing all the players together to look at what the future 
holds in case the threat starts to accelerate a little bit. And 
we are aware of the potential for that happening.
    And I am pleased with what I have seen in that effort. I 
believe it is soon going to be briefed to the Secretary of 
Defense and that subsequent to that Congress would be briefed 
as well. But I am comfortable in my ability to defend the 
country from the current limited ballistic missile threats that 
I am charged with defending against.
    I would echo your comments on the CR. That has some 
definite potential for slowing things down for General O'Reilly 
to include delays in component testing, delays in Navy 
ballistic missile defense ship modernization.
    It delays some of the testing that we would like to do. It 
will delay the construction of Missile Field 2 in Fort Greely, 
and so on down the line. So if we can get beyond the CRs, I 
would be with you in that regard.
    Mr. Franks. Thank you, sir.
    Well, let me----
    General Fraser, forgive me. I am going to skip over here 
and talk to Admiral Stavridis, if I could.
    Recent evidence, Admiral, has emerged that the Iranian 
regime has released a video that suggests that they may 
escalate hostilities in an effort to fulfill this prophecy of 
Mahdi. And that includes, of course, destroying Israel and 
conquering Jerusalem.
    And I understand that the X-Band Missile Defense Radar 
System there in Israel now is obviously interconnected with our 
U.S. theater missile defenses and that we have fire control. 
But I am concerned that the budget constraints will prevent 
these systems from effectively mitigating on Iranian threats to 
the region.
    So I guess the question here is how confident are you that 
our current missile defense network in that region can 
effectively mitigate an Iranian threat that seems to be 
increasing or even escalating? And what do you believe needs to 
be done additionally to ensure that we can protect key U.S. 
interests, including the State of Israel, from such a threat?
    Admiral Stavridis. Sir, I do believe that as we look at the 
emerging ballistic missile threat from Iran and from other 
actors both in that region and elsewhere around the world, it 
is a threat for which we must be very mindful.
    The cooperation we have with Israel in that regard is 
strong, and I believe it will continue. I had a chance to go 
see a missile defense exercise a year ago. I am going to 
another one this summer. It is a capability we work very 
closely on.
    The good news is we are now bringing online, as you know, 
the European phased adaptive approach, and I will send you some 
material for the record that will cover that part of my answer. 
Thank you, sir.
    [The information referred to can be found in the Appendix 
on page 179.]
    The Chairman. Thank you very much.
    Mrs. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    I would like to begin with Admiral Winnefeld. In reading 
your testimony, I was taken by the reference to the National 
Guard. In our Readiness Subcommittee, we had talked about the 
National Guard sort of enhancing the forces when we get to the 
end strength issues.
    You specifically mentioned that you have 40 as part of U.S. 
NORTHCOM. And I am also curious, given the fact that we have 
the issues of, of course, Article 10 and Title 32, how is it 
that you are able to do that? Because they are being utilized, 
or appear to be utilized, for issues regarding, really, our own 
defense, and there is, of course, as you know, through the 
Constitution and various other laws, that there are 
restrictions on what the military can do.
    So if you can explain to me, because this is something that 
I have been very curious about, as we talked about it in 
Readiness, as to how do we get the National Guard working with 
the military.
    And it is also interesting, because, you know, you are Navy 
and, of course, you don't really have any of that, and they are 
under the control of the governors and not Congress or the 
military. So if you could educate me on that, I would 
appreciate it.
    Admiral Winnefeld. Sure. First of all, I want to stress 
that I am just very, very pleased with the relationship that I 
have with the National Guard, both personally with my 
counterpart, General Craig McKinley, and the adjutants general 
of the 54 states and territories and Washington, D.C. They are 
good friends. We are very close partners, and I think it is a 
very good news story.
    I am also very pleased and proud with the dependence that I 
have on the National Guard for things that may surprise you. My 
missile defense trigger-pullers are all National Guardsmen from 
Colorado or Alaska, tremendous capability in the air 
sovereignty alert piece with the Air Guard. And it goes on and 
on.
    So it is important that I have National Guard 
representation in my headquarters, both culturally, 
technically, so we properly understand our relationship with 
the Guard and don't stray outside the lines while we use them. 
And the Guardsmen that are in my headquarters tend to be on 
Title 10 ADOS [Active Duty for Operational Support], that sort 
of thing.
    And so we, obviously, have a raft of lawyers that make sure 
we are doing this properly and legally and that sort of thing 
and that they are associated in general with National Guard-
related issues, which is where the legality comes in.
    And I not only have, I think, it is 45 of them in my 
headquarters, but on any given day temporarily coming to the 
headquarters to do work and that sort of thing, I might have 
upwards of 100. And I am very proud of that fact.
    It has really helped our headquarters in our understanding 
of our missions, many missions we have, and in particular the 
way that we would support the states in the wake of a disaster, 
working through FEMA. So I think it is a very good news story.
    Ms. Hanabusa. Well, as an attorney, I have never heard of 
attorneys playing a critical role to keep people on.
    Admiral Winnefeld. We have 10,000 of them in the Department 
of Defense.
    Ms. Hanabusa. Along the same lines, Admiral, you also 
mentioned the concept of transnational criminal organizations 
as a major focus. And I guess that has also triggered the 
interest in the National Guard component as well, because, you 
know, we don't usually traditionally view the military as 
somebody engaging transnational criminal, or TCOs, as you say.
    Can you also explain to me how that is interfacing with the 
National Guard, if it does at all, because that seems to be 
more of a local state issue than a military one?
    Admiral Winnefeld. Sure, that is a very good question. And 
in general, first, I would say that anything that we do 
regarding transnational criminal organizations, whether it be 
domestically or in support of our Mexican partners, is always 
in support of civilian agencies, in particular law enforcement. 
We don't take on any of those roles ourselves.
    On the U.S. side of the border, we give considerable 
support on the active duty side using JTF North to our law 
enforcement partners, in particular Customs and Border 
Protection and ICE [U.S. Immigration and Customs Enforcement] 
and those sorts of things.
    When it comes to the National Guard and the recent 
deployment of National Guard to the border, that is completely 
outside of my responsibility, in the sense that they are 
brought under Title 32 active status. They work for the state 
governors in that status.
    And by virtue of the fact that they are in Title 32, 
technically they can do law enforcement operations, although I 
don't believe they are. They are typically doing entry 
identification team support to the Border Patrol and that sort 
of thing.
    So I have no command-and-control authority whatsoever over 
the National Guardsmen who have been sent to the border. I 
watch it, of course. I keep in touch with my Guard partners on 
how it is going.
    Ms. Hanabusa. But they are an integral part of your TCO 
operations?
    Admiral Winnefeld. The National Guardsmen who are deployed 
to the borders are not part of my counter TCO operations. They 
really work for the state governors and in turn work closely 
with the Customs and Border Protection team.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank all three of you for your service to our country.
    Admiral Stavridis, if I am saying it right, the Government 
Accountability Office has criticized EUCOM--European Command--
and U.S. Army-Europe for its cost assessments regarding options 
for retaining four brigade combat teams in Europe, saying the 
analyses were, quote-unquote--``poorly documented, limited in 
scope and based on questionable assumptions.''
    What have you done to correct this problem? Do you agree 
with the GAO [Government Accountability Office]? Will retention 
of three or four brigade combat teams in Europe add significant 
infrastructure sustainment costs? And what are the cost 
implications?
    Admiral Stavridis. Well, this is an area in which there has 
been a great deal of analysis going both ways. And I would say 
that, first of all, I will provide you--because it is detailed 
and technical, and I would like to come back to you on the 
record and provide that in some measured way to you.
    [The information referred to can be found in the Appendix 
on page 180.]
    Admiral Stavridis. As a general proposition, I think over 
the last year we have become much closer in the way we viewed 
this as between Department of Army, EUCOM, GAO and OSD [the 
Office of the Secretary of Defense], because OSD has really 
stepped up and led the study that the chairman asked me about 
earlier. So as a result of that study coming out, I think you 
will have an opportunity to see that we have brought this 
analysis together in a way that is sensible.
    The root of the question is always, do you save money or do 
you spend more money when you forward deploy troops from CONUS 
[the Continental United States] or from a forward European 
Command platform, if you will? And so there has been some back 
and forth between the entities you mentioned, Congressman, in 
regard to everything from cost of shipping to moving, we would 
say, from fort to port and port to fort forward.
    So I would say over the last year we have brought that 
analysis together, and it is reflected in the report that will 
come out shortly, and I will get you more of the technical 
detail and provide it to you.
    Mr. Coffman. Let me ask a quick follow-up question in 
regard to that. If forces based in Europe are not committed to 
combat operations in Afghanistan and Iraq, in your opinion, how 
many brigade combat teams should be forward-based in Europe?
    Admiral Stavridis. Well, I think that it is difficult to 
answer that question. And I would point here to the Libya 
operation, in the sense of we never know what is going to pop 
up. And, obviously, we are not sending ground troops to Libya. 
That is very clear. However, it is indicative of the potential 
for emergence of new tasking.
    So the analysis that we have provided to the Department of 
Defense reflects the potential for change in the world. And the 
change can be good as we transition in Afghanistan and reduce 
it, and the change can potentially be bad, if we see an 
emergent mission somewhere.
    Mr. Coffman. And do you believe that the operation right 
now in Libya has the appropriate force mix between U.S. and 
coalition forces?
    Admiral Stavridis. I do. And I would say that we today in 
NATO took over the mission, and we are reducing the U.S. 
component of it measurably. And I think you will see our allies 
increasingly engaged, and that is appropriate.
    And the mix of forces is sea and air forces, since we are 
not going to use ground troops there. And certainly that is 
good, in the sense that it is different than the forces that we 
need in Afghanistan, a landlocked country. So I believe we are 
adequately resourced at the moment at NATO, and I believe that 
the balance between U.S. and coalition is appropriate.
    Mr. Coffman. Let me just say one word for the record that 
the President said in his speech, I think, on Monday night that 
it took 8 years to do regime change in Iraq. Actually, it took 
3 weeks to do regime change in Iraq. It took 8 years in the 
aftermath of that regime change, given the fact that there was 
then a humanitarian catastrophe and sectarian warfare that 
dragged the U.S. into it for 8 years.
    General Fraser, could you speak a little bit about China 
and its growing influence in Latin America?
    General Fraser. Thank you, Congressman.
    Today I see it primarily in the diplomatic and the 
commercial realm, really, and a two-way street, if you will. 
Many of the countries and nations within Latin America and the 
Caribbean are reaching out to China as they see that as an 
economic opportunity for them as well as China coming in and 
working within Latin America.
    Outside of Asia, Latin America is the second destination 
for Chinese investment.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I have a question for Admiral Winnefeld. Actually, I would 
like to make a statement, and I want to thank my colleague from 
Hawaii for bringing up the National Guard. We are, indeed, very 
proud of our National Guard in Guam. And I think if my 
statistics are right that, per capita, we have the largest 
number of National Guardsmen in the United States.
    Is that correct?
    Admiral Winnefeld. That is a very good question. Because 
Guam lies outside of my area of responsibility, I have not paid 
attention. But I will certainly look into that for you.
    [The information referred to can be found in the Appendix 
on page 179.]
    Ms. Bordallo. Well, Congressman Wilson was with me when we 
heard those statistics.
    Also, having just returned from a CODEL [Congressional 
Delegation] with Congressman Wilson and other members of the 
Armed Services Committee, we were shocked during a country 
briefing to hear that over 1 million people are addicted to 
drugs in Afghanistan. Is that a figure you have heard?
    Admiral Stavridis. I can take that question.
    Ms. Bordallo. Yes?
    Admiral Stavridis. Yes, ma'am, that is accurate. I will 
give you another one. In Russia today there are 1.5 million 
people addicted to heroin.
    So this is part of this supply chain of poppy to opium to 
heroin that is moving largely from Afghanistan through the 
region and contributing to deleterious effects in corruption, 
in human cost, as you allude to, a very great challenge.
    Ms. Bordallo. Well, we were truly shocked at some of the 
numbers that we heard.
    Also, Admiral, I would like to ask you, you have often 
discussed the most effective method to national security is a 
whole-of-government approach.
    You mentioned your efforts in great detail in your posture 
statement. Would you please describe to us what you have 
learned from this approach and if you still believe that this 
is the best path forward?
    Admiral Stavridis. I do believe in this very turbulent 21st 
century that we need to bring all elements of national 
capability together to solve security challenges, because so 
many of them are transnational, nontraditional problems that 
direct military activity will not solve.
    We have to have Department of State, AID and Defense, the 
so-called three Ds, working together--defense, diplomacy and 
development. And I believe it is actually much larger than 
those three agencies.
    We have talked a lot today about many other government 
agencies, from the Drug Enforcement Administration to the FAA 
[Federal Aviation Administration] to the Department of Justice, 
Department of Transportation, Department of Homeland Security, 
obviously.
    We have to bring all of these elements of capability 
together to bear against the challenges that we have all talked 
about today, because they go across borders, they are 
nontraditional. And I believe that is a very important aspect 
of our security going forward.
    Ms. Bordallo. Well, I think my colleagues would agree with 
me, during our recent CODEL, we did find that, working 
together, all of these agencies were very important to our 
success.
    Admiral Stavridis. Yes, ma'am.
    Ms. Bordallo. Thank you very much.
    And I yield back my time.
    The Chairman. Thank you.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman, Ranking Member.
    And, gentlemen, it really is an honor to have you all here 
today.
    And, to Admiral Stavridis, I understand that we have 
transitioned the combat theater of operations to NATO control 
right now. My question is this. And having been on some NATO 
missions, I know that lots of times that CJMD, the combined 
joint manning document, lots of times has to be picked up ad 
hoc to be filled. So my question is, what percentage of the 
CJMD are we finding that the United States is going to have to 
fill with the NATO C-2 [Command and Control]?
    Admiral Stavridis. A couple of answers to that, and, first, 
Congressman, thank you for your service, as well.
    Mr. West. Not a problem.
    Admiral Stavridis. And obviously spent some time in NATO.
    I would say that let us start with the command structure 
itself. Today the command elements are an Italian CAOC 
[Combined Air and Space Operations Center] and their operation 
center in Poggio Renatico, commanded by an Italian one-star. 
There is a three-star Italian admiral who is in charge of the 
arms embargo at Maritime Component Command-Naples; in Izmir, 
Turkey, the Air Component Command Center, headed by a three-
star American with a three-star French deputy. And that flows 
up to the three-star Canadian general, who is heading up the 
joint task force embedded in Joint Forces Command-Naples.
    Of that command structure, to pick one number, for 
example--but it is an important one--would be flag and general 
officers. In all of those entities, there are about 40 admirals 
and generals. Only five will be from the United States. The 
rest will be alliance officers.
    Throughout the operation, I think the balance will be 
somewhere around 50-50 as we move forward. Over the last week 
or so, taking strike sorties as an example, they have been 
balanced about 50-50 between the alliance and the United 
States.
    And then, finally, to take a third example, I think that we 
will see over the next couple of weeks as we move into this, we 
will see the strike part of this and the aviation combat air 
patrol will be filled largely by the allies, and the United 
States will shift to enablers--things like intelligence, 
surveillance and reconnaissance, refueling, CSAR, combat search 
and rescue.
    So I think the balance feels about right in terms of 
alliance, and I am confident that we will be able to fill the 
CJMD, CJSOR [Combined Joint Statement of Requirements] 
appropriately as we go forward.
    Mr. West. Have you found yourself having to switch hats 
back and forth to task yourself as the EUCOM commander to----
    Admiral Stavridis. It is actually no, because the big 
change over the last 5 years was the stand-up of U.S. Africa 
Command. As you very well recall, Africa and Europe used to be 
part of one enormous combatant command, and I think the 
department very wisely, with the support of Congress, stood up 
Africa Command. So it really has been a transition from a U.S. 
commander, Carter Ham, General Carter Ham, over to me as the 
NATO commander, and that is in progress today.
    Mr. West. Very well.
    To General Fraser and Admiral Winnefeld, first of all, 
thanks, and it is great to see both of you again.
    General Fraser, it was great that your staff hosted me down 
there at your headquarters--a very beautiful, pristine 
headquarters and a very functional headquarters.
    One of the concerns I have is--we have discussed before--
with the TCOs. But we also do have a radical Islamic threat 
that we are starting to see--Central America, South America, 
and even creeping into Mexico.
    We discussed while we were at your headquarters these new 
mini-submersibles that we are starting to see. Of course, today 
those mini-submersibles could be used by the TCOs for drugs, 
but what could they possibly be used for in the future?
    When I go to the Border Patrol Web site, I see this 
category called ``OTMs,'' which stands for ``Other Than 
Mexicans.'' And I am sure every one of us know who fits into 
that category. So my big concern is, are we starting to see the 
age-old maxim of ``the enemy of my enemy is my friend''?
    Is there an alliance that is somewhat growing in your two 
respective AORs between these TCOs and some of these radical 
Islamic non-state, non-uniformed belligerents? And how are we 
tracking it?
    General Fraser. Congressman, thank you for that question.
    There is a lot of complexity to the relations of the TCOs 
within the region. And even though extremist organizations are 
involved in illicit activity, I have not seen a connection 
between those two groups as they conduct their own illicit 
activities.
    The one connection that we see growing is the area we term 
``special interest aliens,'' and those are individuals coming 
from other parts outside of Latin America, who have and use the 
illicit trafficking routes within Latin America for entry into 
the United States. We are just seeing connections there. That 
is not necessarily connected to extremist organizations, but we 
are continuing to watch.
    Mr. West. Thank you.
    The Chairman. If you could give it to him for the record, 
that would be appreciated.
    [The information referred to can be found in the Appendix 
on page 180.]
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Admiral Stavridis, I wanted to follow up on a couple of 
things that you have touched on. The chairman began by asking 
about force structure in Europe and the study that is going on. 
But I think a lot of us here at home question about why we have 
so many military folks still in Europe.
    And you touched briefly on the cost aspect of this. But can 
you discuss a little bit the operational advantages to having 
forces deployed in Europe should they be needed in a Libya-like 
situation or elsewhere in the Middle East or North Africa? How 
big a deal is that, to have those forces that far in advance?
    Admiral Stavridis. Sir, I think it is a very important 
advantage having our forces forward in Europe. As I mentioned, 
we have come down a long way since the Cold War, appropriately, 
from 400,000 down to about 80,000 today. Those 80,000 I think 
contribute in at least three very distinct and obvious ways.
    You touched on the first, which is geography. I think that 
as we look forward into this turbulent 21st century, I think 
the possibility of continuing U.S. engagement forward in the 
region in which we are involved today is fairly high. And as a 
result, having forces that are forward gives us geographic 
immediacy in terms of response.
    And with Libya, for example, the U.S. Air Force, which is 
still very strong in Europe, had jets, helicopters, refuelers 
all based there that could immediately be chopped to Africa 
Command and be on-station. So I think that first advantage of 
geography is very crucial.
    A second one is that interaction of our troops with all of 
the European partners, where we learn from each other. And I 
think that is an advantage that we tend to overlook at times. 
But being able to operate so frequently together in so many 
different places in and around Europe, including our crown 
jewel training range, Hohenfels and Grafenwoehr in Germany, as 
well as the new bases in the east, is a second real advantage--
that kind of continuous engagement.
    And then thirdly, the presence of the United States there 
is what encourages our allies to come forward and operate with 
us. Because we operate with them, we live with them, it creates 
an environment in which we can generate 45,000 non-U.S. troops 
for Afghanistan. We can generate today--for example, off of 
Libya, there are 40 ships operating, only about 12 from the 
United States, the rest from our European allies. Why is that? 
Because we are embedded with them and operate with them.
    So I would say geography, mutual training and the benefits 
of that, and finally the ability to leverage these forces 
forward are three very strong advantages.
    Mr. Thornberry. Let me ask you about one other thing. You 
mentioned today NATO takes over the Libyan operation. Are the 
rules of engagement clear? I think we all assume that if an 
airplane gets up in the sky, a Libyan airplane, it will be shot 
down. If a tank moves, it seems like the tank is taken out. But 
it is not clear to me, if there are a group of Libyan 
government soldiers massing together, what our reaction is to 
that.
    And so I guess my question is, are the rules of engagement 
clear? What can you tell us about them? And in a NATO context, 
are they determined by the least common denominator? Or who 
sets them?
    Admiral Stavridis. Terrific question. I think we should 
probably not discuss specifics of rules of engagement because 
of classification. I will provide you the actual rules of 
engagement.
    [The information referred to can be found in the Appendix 
on page 177.]
    Admiral Stavridis. And I think you will be struck as you 
see how similar they are to U.S. normal unilateral rules of 
engagement in format, in style, and in fact in intent and use 
of terminology, anywhere from ``hostile act'' to ``hostile 
intent'' to ``penetration of technical area,'' et cetera, et 
cetera, et cetera.
    And this goes back to your previous question of an 
advantage. We have worked together so long with these allies 
that we are fairly close in our tactics, techniques, procedures 
and, yes, our rules of engagement.
    In terms of how they are generated, they come up from the 
operators. The first set of rules of engagement were generated 
from the operational commander, who is heading this operation 
down in Naples. They come into my headquarters. They are very 
carefully vetted by my operational international NATO team. And 
then they go up to the North Atlantic Council, and they are 
approved there. All that flowed very smoothly in this process.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    And I thank the distinguished panelists for being here and 
also for your leadership for our servicemen and women.
    I guess first a comment, and it is conveyed with the 
deepest and most profound respect for my colleagues and the 
panelists. But, you know, on the issue of the forward presence 
and some of the virtues that have been put forward today, I 
guess it would be precisely my point that I am concerned about 
us being forever or aggressively being involved in operations 
overseas.
    I have opposed the actions in Libya. I think we have so 
much on the plate right now that we need to do to bring closure 
with regard to Iraq and Afghanistan. We are certainly involved 
in a global challenge from extremist networks that are designed 
to protect our cherished way of life.
    And as we bring those operations in Iraq and Afghanistan to 
a closure and look to perfect and to neutralize, perfect our 
counterterrorism operations and neutralize the extremist 
threats and learn from the past, I don't want to see us get 
involved, as much as I am empathetic with those who want to 
live free.
    So I guess I would respectfully disagree that we get added 
benefit from forward presence. And when asked that we consider 
the fact that while these are worthy goals--reassurance, 
deterrence, training and engaging in operations--I am not 
convinced that that must be so with forward presence. I think 
you can also do these things using joint exercises going 
forward. I just wanted to make that comment.
    The question I have is actually for Admiral Winnefeld, and 
I must say right up front that I am critical of some of the 
expansions in our federal government over the last decade as it 
relates to protecting our way of life. I just wanted to say 
that up front because I m going to ask you the question with 
regard to the whole-of-government, Department of Defense, 
Northern Command and Department of Homeland Security.
    Can you perhaps provide some clarity on unity of effort? 
Who is in charge with regard to border security, 
counterterrorism operations here, cyber defense and response to 
natural disaster? Who is in charge?
    Admiral Winnefeld. Thank you for your question, sir.
    First, I would say that we have a very good whole-of-
government synergistic relationship with our various partners 
inside the federal government, to include the Department of 
Homeland Security and also inside DOD [the Department of 
Defense]. In general, I find myself, unless I am pulling the 
trigger for a ballistic missile defense or some sort of air-
breathing threat to North America, that most of what I do is in 
support of my partners.
    So in the event of a disaster, for example, there are 
capabilities that the Department of Defense can bring to bear 
that we would use other places as well, potentially overseas in 
a contingency or something like that, that are either very 
specific capabilities that are in short supply among our 
partners inside government, or they are capacities--just sheer 
numbers of people that can respond to a disaster, who are well 
trained, disciplined, you know, as your experience in the 
military would probably inform you, where we can assist our 
partners.
    And we have very carefully drawn rules and limitations and 
processes and procedures by which we provide that support. So 
my very good partner in the Federal Emergency Management 
Agency, Craig Fugate, is in the lead in the federal response to 
a disaster in support of the various states. If he needs my 
support, he will--there is a process in place--the Stafford 
Act, Economy Act, where he can provide a mission assignment to 
me, and we will respond according to the Secretary of Defense's 
willingness to do that. So that is just one small example.
    Regarding the cyber piece, I would, of course, defer to 
Strategic Command and U.S. Cyber Command in that regard, but 
they have struck a very good relationship with Department of 
Homeland Security in terms of what the way ahead is for 
supporting this country in the event of a cyber attack that 
could be fairly debilitating.
    So I would want to assure you that we do have minimal 
redundancies, that we have appropriate procedures and rules in 
place where we can work closely together as a whole-of-
government.
    Mr. Gibson. I appreciate the comments and know that every 
day you are giving everything you have to protect us, and we 
are just incredibly proud. I would just say that I think that 
there were other ways that we could have aligned our 
organizations that I think would have been more effective, but 
for now I will just yield back. Thanks.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you.
    General Fraser, you mentioned earlier with respect to Mr. 
Coffman's comments relevant to China's activities in Venezuela, 
and clearly the numbers show that it is commercial, but in your 
statement you talk about military arms sales to Venezuela, 
Russian. They had portable weapons, automatic weapons, the AK-
47 deal they made with Chavez and also, I guess, sales to 
Bolivia.
    Can you talk to us somewhat about our visibility as to what 
Chavez is doing with respect to those relationships? Fold into 
that the Iranian work and Russian work with Chavez in terms of 
at least talking about a nuclear power program within Venezuela 
and how that might morph into something else that is more 
threatening to us than just his bluster.
    Interesting comment made the other day about wanting, I 
guess, Venezuelans to eat less every day to reduce their 
caloric intake. I didn't realize that was such a strategic 
threat to Venezuela, but maybe it is, to talk about how he is--
give me some thoughts about the military aspects of what China 
and Russia are doing in Venezuela and South America in general.
    General Fraser. Thank you very much for that question, 
Congressman. If I look broadly across the region and look at 
China, it is very much focused on commercial and diplomatic 
efforts. They do have military programs not just with 
Venezuela, but with many of the countries in the region, where 
they are inviting individuals to come attend courses within 
China.
    They are also looking to establish closer military-to-
military relationships with partners in the region. And they 
are beginning to sell more weapons, the K-8. It is a light 
attack aircraft and a trainer that they are selling to 
Venezuela and that Bolivia is also looking at right now. I 
still see it very much in a commercial and diplomatic and in a 
business aspect.
    Russia, I still see again very much focused in arms and 
also working to address both commercial and diplomatic efforts.
    Do we have a lot of visibility? I don't have a lot of 
visibility into what all those agreements are. I see a number 
of agreements made. Those agreements tend to take a long time 
to come to fruition.
    Specifically to your question on Iran and the issue with 
nuclear power, there was an agreement that Venezuela and Iran 
signed, but subsequent to the concerns in Japan over the 
Fukushima reactor site, at least the statements from President 
Chavez are that he has put a hold on any future development of 
nuclear power.
    Mr. Conaway. We have had a change in the presidency in 
Colombia. You mentioned the great work the Colombians did led 
by their courageous President Uribe. Now with Santos do you see 
any changes in their focus on what successes Colombia has had 
with Plan Colombia and our involvement with the new Santos-led 
government?
    General Fraser. I see President Santos continuing the great 
work that President Uribe did, and expanding it. He has 
reestablished diplomatic relations with Venezuela as well as 
Ecuador, and there are growing military as well as commercial 
and other relationships there. Across all his borders, he is 
working to expand that.
    If you look within Colombia itself beyond Plan Colombia, it 
is now a consolidation plan, and he is even looking to put in 
place a broader plan, a $240 billion effort over 4 years to 
expand the Colombian government's presence throughout the 
region.
    In addition to that, he is reaching out beyond Colombia. He 
is helping support the Mexican military with training some 
helicopter pilots. He is involved in Central America. He is 
looking to see where they can provide their lessons to other 
partners and share their experiences.
    Mr. Conaway. Okay.
    General Fraser. So it is a very positive effort.
    Mr. Conaway. The requirements--on page 22 of your 
statement, you talk about the needs that you have. Specific 
needs include manned and unmanned aerial vehicles, light 
detection and ranging technology, a variety of things. Does the 
2012 budget request support acquisition of these capabilities 
for Southern Command?
    General Fraser. These are capabilities that are existing 
broadly across the Department of Defense, so they are 
continuing to progress and provide those capabilities. And then 
we will work on a year-to-year basis on where the concerns and 
where their priorities are within the department to----
    Mr. Conaway. So your 2012 budget request gives you access--
I mean, these aren't new, but they give you the proper access 
to deploy these things in your AOR adequately.
    General Fraser. As we look across the globe and you look at 
all the concerns that we have around the globe, within their 
priorities and within the concerns that we have, I have 
adequate access to those types of capability.
    Is there opportunity for more? Yes, sir. But if we put it 
in context, I am comfortable with where we are.
    Mr. Conaway. Okay.
    Thanks, Chairman.
    The Chairman. Thank you very much.
    Admiral Stavridis, General Fraser, Admiral Winnefeld, thank 
you, each of you, for the job you are doing. Please convey our 
thanks. As a member of the Armed Services Committee, all of us, 
I am sure, would ask you to convey our thanks to those that you 
command for the great job that they are doing. And thank you 
for your time here today.
    This committee will now be adjourned.
    [Whereupon, at 11:54 a.m., the committee was adjourned.]

=======================================================================




                            A P P E N D I X

                             March 30, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 30, 2011

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 30, 2011

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Admiral Stavridis. On April 4, 2011 EUCOM representatives provided 
a copy of the then current NATO rules of engagement for Libya 
operations to Representative Thornberry's office. [See page 33.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN
    Admiral Winnefeld. Lessons from our support to the Vancouver 2010 
Olympics (Operation PODIUM) pertain to Command and Control; 
Relationships and Interaction; Information Management; and Guiding 
Documents, Concept Plans (CONPLANs), and Memoranda of Understanding 
(MOUs).

    COMMAND AND CONTROL

    <bullet>  Multiple Supported Commanders. During the Olympics, there 
were two supported commanders: Commander, Canada Command (Canada COM) 
and Commander, North American Aerospace Defense Command (NORAD) and 
U.S. Northern Command (USNORTHCOM). Although there were no fundamental 
doctrinal issues with multiple supported commanders and there were no 
issues with defining tasks during the actual operation, there were 
minor issues with planning, theater activation, theater deactivation 
and personnel administration that were complicated by the dual nature 
of the supported commanders.
        <bullet>  Way Ahead. In conjunction with the Secretary, Joint 
        Staff (SJS), develop the standing Canadian Special Security 
        Event framework, recommend modifications to the Chief of 
        Defence Staff (CDS) Command and Control Directive, and provide 
        input for new CDS Initiating Directives to clearly identify 
        roles, responsibilities, and missions for the supported 
        commanders.

    <bullet>  Tactical Control (TACON) of Forces. There were concerns 
within the Office of the Secretary of Defense (SecDef) regarding TACON 
of U.S forces to the Canadian Forces (CF). Although the Canada-United 
States Civil Assistance Plan (CAP) clearly states that the host nation 
will have TACON over visiting forces, there were concerns stated during 
Operation PODIUM that were only resolved after long discussions.
        <bullet>  Way Ahead. One possible resolution of this issue is 
        to have the signing authority for the CAP at the SecDef and CDS 
        level, rather than, Commander, USNORTHCOM and Commander, Canada 
        COM level. This could also be an issue to be resolved by 
        Permanent Joint Board on Defense.

    <bullet>  Common Operating Picture (COP)--Tracking of Forces. There 
appears to be different expectations within USNORTHCOM and Canada COM 
as to the COP. Forces within Canada are not equipped with a Situational 
Awareness System (Blue Force Tracker). Therefore, the level of fidelity 
available to and requested by Commander, Canada COM may be less than 
what is available to Commander, USNORTHCOM.
        <bullet>  Way Ahead. A clear understanding of what a COP means 
        to each of the nations is required for the CAP. Although this 
        will often be commander dependent, it will still establish a 
        baseline of understanding from which planning and information 
        management requirements can be developed.

    RELATIONSHIPS AND INTERACTION

    <bullet>  Medical Overall. There are a significant number of 
hurdles that need to be overcome for medical personnel, pharmaceuticals 
and counter-measures to be employed cross-border. These issues should 
continue to be addressed through both governments' medical services so 
that the employment of medical personnel, pharmaceuticals and counter-
measures can be expedited through a clearly defined process.
        <bullet>  Way Ahead.
                <bullet>  Patient Regulation. To achieve maximum 
                benefit should patient regulation be required within 
                Canada, a more robust patient regulation system should 
                be developed. Canada could either modify the existing 
                U.S. National Disaster Medical System (NDMS) or develop 
                a de novo Canadian system. Either system should be 
                compatible with the U.S. system to facilitate moving 
                patients across the border should that be required.
                <bullet>  Reciprocal Licensing. Refine three courses of 
                action and determine best course: continue current 
                practice of emergency waiving of licensure at the state 
                and provincial level; seek pre-approval for military 
                and NDMS personnel based on credentialing processes 
                currently used for these personnel; or, build on 
                existing provincial/state cross border public health 
                agreements to ease reciprocity of licensure.
    <bullet>  Cross Border. Overall, the preparation for U.S. forces to 
come across the border into Canada was well coordinated. However, there 
may be a difference between deliberate planning of crossing operations 
and crisis planning. Several issues still need to be further 
investigated with regards to border crossing.
        <bullet>  Way Ahead.
                <bullet>  The Visiting Forces Act (VFA) and Status of 
                Forces Act (SOFA) should be validated for contingency 
                operations (not just exercises and training).
                <bullet>  The issue of servicemembers with criminal 
                records needs to be examined and if the requirement to 
                pre-screen these members exists, this should be 
                captured in the CAP.

    INFORMATION MANAGEMENT

    <bullet>  Canadian Communications Systems Network (CSNI) 
Effectiveness of Access for the United States. CSNI was chosen for 
Operation PODIUM because it is the main Canadian secure system and the 
system is widely available within NORAD and USNORTHCOM. Other terminals 
were added as required (Washington State and Joint Task Force Civil 
Support) to ensure even greater connectivity. However, there are 
significant challenges to using CSNI in the United States.
        <bullet>  Way Ahead.
                <bullet>  We should continue to pursue the initiative 
                to allow interoperability between CSNI and the Secret 
                Internet Protocol Router Network, particularly in terms 
                of email between the commands.
                <bullet>  When Law Enforcement Agencies are involved, 
                more planning and greater effort will be required to 
                develop an Information Management (IM) plan that 
                recognizes law enforcement sensitivities, but doesn't 
                create a military ``firewall'' for information.
        <bullet>  Sharing of Lessons Learned. Canada and the United 
        States have different software systems for capturing lessons 
        learned and these systems do not talk to each other. In 
        addition, there is no formalized process for the three commands 
        to sharing lessons learned.
                <bullet>  Way Ahead. A formalized ``knowledge sharing'' 
                process for sharing lessons learned should be developed 
                for the commands.

    GUIDING DOCUMENTS, CONPLANs, AND MOUs

    <bullet>  Guiding Documents, CONPLANs and MOUs. In general, the 
guiding documents that are in place worked for Operation PODIUM. 
However, several of these documents should be modified or re-examined 
in light of some of the lessons learned during the operation.
        <bullet>  CAP. The CAP should
                <bullet>  Include a detailed IM plan to provide a 
                baseline for future security events.
                <bullet>  Document processes that are in place so that 
                medical requirements can be expedited.
                <bullet>  Contain a legal annex that identifies key 
                differences between operating in the United States and 
                in Canada, and highlights key legal authority documents 
                like the SOFA and VFA.
                <bullet>  Include a financial annex to provide a 
                framework for fiscal reimbursement and dispensation.
        <bullet>  SOFA and VFA. Both of these documents were used 
        extensively by military and interagency organizations to 
        support the deployment of U.S. forces across the border. 
        Applicability of the VFA and SOFA needs to be confirmed prior 
        to the commencement of any particular operation.
        <bullet>  CF CDS C2 Directive and CDS Initiating Directives. 
        The CF CDS C2 Directive should be revisited with the SJS to 
        clarify some of the relationships between NORAD and Canada COM, 
        especially during special security events. Since dual supported 
        commanders for operations will likely not disappear, a more 
        detailed understanding of the linkages during planning, theater 
        activation/deactivation and personnel administration is 
        required. [See page 23.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER
    General Fraser. What we have not done yet, and what we are working 
to do, is to ensure a regional, integrated counterdrug strategy--
connecting our efforts in Colombia, the Andean ridge, Central America, 
Mexico, the Caribbean, and the U.S. The problems Mexico is facing are 
implicitly connected to the cocaine production in the Andean region; 
that cocaine is trafficked through the Central American corridor, 
through Mexico, and into the U.S. or abroad to the rest of the world. 
As an example, USSOUTHCOM and USNORTHCOM are actively working together 
to ensure there is no seam between our commands, focusing in particular 
on strengthening border security along Mexico, Guatemala, and Belize. 
To be truly impactful, our counter-narcotics strategy needs to be 
coordinated in concert with our partner nations, taking into account 
their capabilities, resources, and particular concerns as well as with 
our interagency partners, such as Department of Justice and Department 
of Homeland Security, under the lead of the Department of State, to 
ensure an integrated and comprehensive strategy.
    In spite of continued regional successes, many challenges continue 
to exist. We are actively working to promote information sharing among 
countries in the region to better coordinate our counter drug strategy. 
Regional security initiatives like the Central American Regional 
Security Initiative (CARSI) and Caribbean Basin Security Initiative 
(CBSI) are designed to build partner nation capability, which 
USSOUTHCOM actively supports through our engagement and security 
cooperation activities in the region. We envision a region that is 
capable and willing to help address security threats that affect all 
nations in this hemisphere.
    Recent world economic challenges, as well as other security 
challenges, have resulted in limitations on available resources. This 
has resulted in a void of assets which otherwise would have the 
potential to disrupt roughly 66% of the actionable intelligence driven 
cases. In contrast, transnational criminal organizations adapt quickly 
to effective counter measures and have significant financial resources. 
The recent confirmation that these organizations use submarines, called 
Self-Propelled Fully Submersibles, underscores the technology and 
resources available to these organizations.
    There is no silver bullet. Through the engagement efforts of U.S. 
Southern Command, regional cooperation will continue to evolve and 
strengthen. [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO
    Admiral Winnefeld. Ma'am, you are correct. Guam has the highest per 
capita National Guard membership in the nation with 1500+ Guardsmen for 
180,800 persons. [See page 30.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FRANKS
    Admiral Stavridis. Implementation of the European Phased Adaptive 
Approach (EPAA) occupies a great deal of our attention in the U.S. 
European Command (EUCOM) theater, and EUCOM is working with our 
partners in the State Department, Missile Defense Agency, Services, and 
Components to ensure we implement and operationalize EPAA to defend 
U.S. forces and interests in Europe.
    For Phase 1, the USS MONTEREY, a Ticonderoga-class guided missile 
cruiser, is already in theater, laying the foundation for Phase 1 and 
the transition to operational capability. This ship represents the 
first asset deployed under the EPAA as well as the intercept capability 
planned for Phase 1. To enhance this capability, EUCOM is supporting 
the State Department's basing negotiations for the AN/TPY-2 radar and 
working closely with the Joint Staff, Office of the Secretary of 
Defense, and U.S. Army Europe to ensure deployment as soon as possible 
once negotiations are complete.
    For Phase 2, EUCOM is fully supporting negotiations led by the 
State Department to establish basing and agreements necessary for the 
Aegis Ashore site in Romania. We will work closely with the U.S. Navy 
and the Missile Defense Agency as the Aegis Ashore development program 
continues.
    For Phase 3, EUCOM is working with a key ally, Poland, to lay the 
groundwork and define the terms and conditions necessary for the 
eventual construction of an Aegis Ashore facility in that country.
    Finally, EUCOM and our Component staffs continue to work with our 
NATO counterparts to develop the procedures and define the systems we 
will use to achieve the missile defense language outlined in the goals 
of the Lisbon Summit. [See page 26.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN
    Admiral Stavridis. I agree with the Department of Defense (DoD) 
response to the Government Accountability Office's (GAO) report, which 
concurred with the report's two recommendations, and has taken remedial 
action on both fronts. I also support DoD's response to the report's 
conclusion, which reads: ``Although the Department concurs with the 
specific report recommendations, the Department nonetheless takes issue 
with a report conclusion that `Keeping more Army forces in Europe than 
originally planned would result in significant additional 
costs...'(page 3). This report does not consider the full cost of the 
CONUS basing alternative, including the cost to build new 
infrastructure in CONUS, or the cost to rotate units from CONUS to 
Europe on temporary deployments to maintain a forward presence. Because 
it ignores these costs, the conclusion of the report is unfounded.''
    At U.S. European Command (EUCOM), we understand the importance of 
developing a defined process and establishing a clear methodology for 
evaluating force posture alternatives. To that end, my team--working in 
concert with the Office of Secretary of Defense (OSD), Joint Staff, 
U.S. Army, and U.S. government interagency representatives--has taken 
definitive steps to institute and ensure proper, balanced, and 
transparent analysis. Those steps include: 1) the codification of OSD 
guidance, specific cost/benefit criteria (political/military, 
operational, force structure/force management, and costs), and defined 
posture processes in an updated EUCOM posture planning instruction; 2) 
a clear definition and delineation of the roles and responsibilities of 
EUCOM Headquarters' two posture planning bodies, the EUCOM Posture 
Executive Council (EPEC) and the EUCOM Posture Implementation Team 
(EPIT), into EUCOM's latest Theater Posture Plan; 3) the wider 
inclusion of interagency representatives into EUCOM's theater posture 
planning efforts; and 4) continued coordination with OSD, the Joint 
Staff, and the supporting Services to include known installation 
operations and maintenance (O&M) costs into force posture 
considerations. I am confident that these steps will help address and 
remediate the issues raised in the GAO report.
    Post-hearing Note: Finally, I support the Department's decision, 
announced on April 8, 2011, to retain three Brigade Combat Teams (BCTs) 
in Europe, as well as DoD's conclusion that this decision ``will 
enhance and rebalance the U.S. force posture in Europe to make it more 
capable, more effective, and better aligned with current and future 
security challenges.'' On specific questions of cost with respect to 
the BCT decision, I would respectfully refer you to the Director of OSD 
Cost Assessment and Program Evaluation (CAPE) and the Department of the 
Army, who remain the governmental agencies responsible for final cost 
analysis and evaluation. [See page 28.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. WEST
    General Fraser. There are no confirmed links between Latin American 
Trans National Criminal Organizations and Islamic Radical Groups. 
However, there are several familial clans of Lebanese descent involved 
in illegal activity, to include drug trafficking and the laundering of 
drug proceeds throughout Latin America and the Caribbean. These clans 
have publically been associated with Hizballah. They typically operate 
within the Free Trade Zones in the region and use the permissive 
environment to facilitate their activities. In addition, supporters and 
sympathizers of Lebanese Hizballah in Latin America reportedly move 
multi-hundred kilogram quantities of cocaine to Europe and the Middle 
East each year. We assess that Hizballah receives tens of millions of 
dollars annually from supporters in Latin America involved in drug 
trafficking. [See page 32.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 30, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Last month we discussed the NATO Deterrence Review. I 
get the sense that this review may jump right to ``how'' we deter and 
not examine ``who'' or ``what'' we're trying to deter.
    a) How do you conduct a deterrence review without first identifying 
``who'' or ``what'' we're deterring?
    b) Also, Russia has thousands of tactical nuclear weapons; the U.S. 
has a few hundred. Is it in our national security interest to 
unilaterally reduce or withdraw our U.S. nuclear forces in Europe?
    c) What role do nuclear weapons play in the NATO Alliance?
    d) What role do U.S. nuclear forces in Europe play?
    Admiral Stavridis.
    a) I am assured that it will be a thorough and complete review--
taking into account all the evolving changes and factors in the current 
and foreseeable security environment. It will help determine the 
appropriate mix of conventional, nuclear, and missile defense forces 
that NATO will need to deter and defend against threats to the Alliance 
and its member states.
    b) The United States Government has repeatedly stated we will 
consult with our NATO Allies on reduction or withdrawal of nuclear 
forces and will not take unilateral action. I strongly support that 
policy.
    c) The NATO Strategic Concept preface states ``as long as there are 
nuclear weapons in the world, NATO will remain a nuclear alliance.'' It 
further points out that deterrence, based on an appropriate mix of 
nuclear and conventional capabilities, remains a core element of NATO's 
overall strategy. To reiterate Secretary Clinton, nuclear weapons play 
a role in the NATO Alliance by providing a ``safe, secure, and 
effective deterrent.''
    d) U.S. nuclear forces provide the resources necessary to maintain 
NATO's nuclear deterrent. Additionally, NATO views the strategic 
nuclear forces of the Alliance, particularly those provided by the 
United States, as the supreme guarantee of the allies' security.
    Mr. Turner. Your [written] testimony points to the extraordinary 
``leverage'' Russia holds over oil and gas supplies for Europe--and 
that Russia has occasionally shut off the gas. What is your assessment 
of the impacts on NATO and the stability of Europe resulting from this 
energy dependence relationship?
    Admiral Stavridis. Russia has a minimal ability to directly impact 
NATO missions through its oil leverage, with the notable exception of 
the fuel received for NATO operations at Manas Air Base in Kyrgyzstan, 
which is purchased directly from a Russian company. Our engagement 
strategy, implemented largely through the NATO-Russia Council, has 
begun building a relationship that will encompass refined petroleum 
interoperability and help define opportunities for participating in 
joint exercises and, possibly, other military operations. Additionally, 
NATO recently stood up an Energy Security Challenges Division whose 
purpose is to study and prepare to deal with energy security threats to 
the Alliance.
    The world oil markets are flexible and would respond to counter any 
imbalances caused by Russian shut-offs. By cutting oil shipments to 
Europe, some price increases would occur, but refineries would continue 
to purchase oil from other sources.
    The NATO Alliance has a very limited reliance on natural gas for 
its operations and facility maintenance. During recent shut-offs, most 
of the reduction was made up from other sources and available reserves. 
However, these same shutoffs caused considerable hardship in eastern 
European countries, to include some NATO members, who depend on Russia 
for natural gas. Effects included the loss of residential heating and 
the closures of factories and businesses. However, as long as these 
shut-offs remain temporary, and are not carried out during the coldest 
part of the year, they are not likely to lead to regional instability. 
These cut-offs also served as a wake-up call to countries, most of whom 
are now taking steps to diversify their energy supplies with liquid 
natural gas (LNG), build more infrastructure, and liberalize their 
markets in order to reduce their dependence on Russian gas.
    Finally, with over 50% of the Russian government's revenue coming 
from oil and gas sales, the Kremlin cannot afford to cut off gas or oil 
supplies for an extended period of time.
    Mr. Turner. Senior military officials have said that in the event 
of a ballistic missile attack, countries like Iran would probably 
launch multiple missiles in an effort to overwhelm our defenses. Is it 
true that the more ground based interceptors Northern Command has at 
its disposal, the higher the probability of intercepting a missile 
headed for the U.S. homeland?
    Admiral Winnefeld. I'm comfortable in USNORTHCOM's ability to 
defend the country from the current set of limited ballistic missile 
threats. Our current shot doctrine--the number of Ground Based 
Interceptors (GBIs) we fire per threat--is based on our best 
understanding of the capabilities of the Ground Based Midcourse Defense 
(GMD) Missile System. The GMD system was fielded using a spiral 
development concept and as such we have repeatedly evaluated the right 
number of GBIs to shoot. As we develop more robust capabilities and 
field them following the Phased Adaptive Approach (PAA) in the 
Ballistic Missile Defense Review report, we will again reevaluate the 
right number and types of interceptors we need to defeat incoming 
threats. Our understanding of the number of threats that rogue nations 
like North Korea or Iran may be able to simultaneously launch indicates 
we currently have sufficient GBIs to handle those threats. The ongoing 
efforts to develop the Hedge Strategy for the PAA will give us more 
insight to verify the right number and mix of interceptors. As such, 
more GBIs could be part of an enhanced solution countering additional 
numbers of threat ballistic missiles.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. As part of the recent DoD efficiencies initiative the 
Air Force proposed consolidating Air Force Southern Command's 612 Air 
and Space Operations Center with the 601st AOC based in Florida. The 
612th as mentioned is aligned with Gen Fraser's Southern Command and 
the 601st is aligned with ADM Winnefeld's Northern Command. Please 
answer the following questions that reference this proposed 
consolidation:
    1. What inputs have your respective commands had on the 
consolidation recommendation?
    2. Discuss the importance of a dedicated Air Component to your 
Combatant Command's capability to execute daily operations.
    2a. What is the impact to your Command of a disruption to Air and 
Space Operation Center's mission capacity?
    General Fraser.
    1. The consolidated AOC basing criteria and concept of operations 
(CONOPs) analysis are currently being developed by the Air Force. I 
have discussed USSOUTHCOM's requirements for Air Force support directly 
with the Air Force Chief of Staff and the Commander of Air Combat 
Command. I am confident the Air Force will execute the consolidation in 
a way that will support SOUTHCOM requirements.
    2. As a Combatant Commander, the Air Component provides me with the 
command and control and situational awareness to conduct flexible air 
operations in the SOUTHCOM area of responsibility.
    2a. With respect to the Air Operations Center, the disruption/
impact of consolidation should be minimal to daily operations. 
Ultimately, mandated tasks will be completed and operations will 
continue. The operational and tactical details will have to be worked 
out by AFSOUTH and AFNORTH once the Air Force makes the decision on 
where to consolidate.
    Ms. Giffords. The Congresswoman's staff requested the Air Force 
provide a detailed concept of operations that describes how 1 AOC would 
support two distinct Air Component Commanders. Thus far this report has 
not been forthcoming.
    Is it possible for 2 Combatant Commands to execute Air, Space and 
Cyber operations from the same operations center?
    If so please describe how this would work.
    Would it require two distinct Air Component Commanders and staffs?
    General Fraser. The consolidated AOC basing criteria and concept of 
operations (CONOPs) analysis are currently being developed by the Air 
Force. I have discussed USSOUTHCOM's requirements for Air Force support 
directly with the Air Force Chief of Staff and the Commander of Air 
Combat Command. I am confident the Air Force will execute the 
consolidation in a way that will support SOUTHCOM requirements.
    As a Combatant Commander, the Air Component provides me with the 
command and control and situational awareness to conduct flexible air 
operations in the SOUTHCOM area of responsibility. With respect to the 
Air Operations Center, the disruption/impact of consolidation should be 
minimal to daily operations. Ultimately, mandated tasks will be 
completed and operations will continue. The operational and tactical 
details will have to be worked out by AFSOUTH and AFNORTH once the Air 
Force makes the decision on where to consolidate.
    Ms. Giffords. As part of the recent DoD efficiencies initiative the 
Air Force proposed consolidating Air Force Southern Command's 612 Air 
and Space Operations Center with the 601st AOC based in Florida. The 
612th as mentioned is aligned with Gen Fraser's Southern Command and 
the 601st is aligned with ADM Winnefeld's Northern Command.
    Admiral Winnefeld. USNORTHCOM and NORAD have provided informal 
input on critical aspects of the consolidation to Air Combat Command 
(ACC) as they work on a draft ``Component Numbered Air Force Multi-
Theater Air and Space Operations Center'' Concept of Operations 
(CONOPS). Specifically, the USNORTHCOM and NORAD staffs have 
highlighted areas that need to be addressed in order for a consolidated 
Air Operations Center (AOC) to support all USNORTHCOM and NORAD 
missions. In addition, we ensured that ACC clearly understands that any 
changes to Canadian mission sets, personnel, and location that are 
identified in the NORAD Agreement will need to be coordinated with and 
approved by the Government of Canada due to Canadian Forces being 
assigned to NORAD.
    USNORTHCOM has one Air Component (Air Forces Northern) that 
executes missions such as support for federal and state authorities in 
the wake of a disaster. NORAD shares the same AOC for its Continental 
United States NORAD Region (CONR) (other AOCs support the Alaska and 
Canada NORAD Regions). Given the importance of homeland defense, a 
dedicated Air Component Commander and forces have been vested with the 
appropriate authorities and they have been provided the required 
training to best protect our homeland. It is important to me, given the 
dynamic nature of NORAD operations in particular, that my CONR 
Commander be co-located with the AOC that supports him.
    The impact of a disruption on the AOC would largely depend on the 
length of time and the reasons for a disruption. Alternate Command 
Center locations and procedures currently in place could mitigate 
potential temporary degradation to our missions. Inevitably there will 
be some disruption during any amalgamation of an AOC capability. 
However, I'm confident that my staff and the AOC staffs will be able to 
work through these issues to ensure that any disruption is minimized or 
averted.
    Ms. Giffords. The Congresswoman's staff requested the Air Force 
provide a detailed concept of operations that describes how 1 AOC would 
support two distinct Air Component Commanders. Thus far this report has 
not been forthcoming. Is it possible for 2 Combatant Commands to 
execute Air, Space and Cyber operations from the same operations 
center?
    Admiral Winnefeld. Even though I am dual-hated as the Commander for 
both commands, USNORTHCOM and NORAD have distinct mission sets. The 
601st AOC at Tyndall Air Force Base is a ``tailored'' AOC that is 
manned by both U.S. DOD personnel and Canadian Forces. It is also 
configured to support the missions of both commands. Thus, Air, Space 
and Cyber operations for both USNORTHCOM and NORAD are already being 
conducted from the same operations center. Folding USSOUTHCOM's air 
component missions into this AOC would eventually constitute support 
for a third command.
    I believe it is possible for two Combatant Commands and NORAD to 
execute Air, Space, and Cyber operations from the same operations 
center. Indeed, for contingencies that occur near the boundary between 
the USNORTHCOM and USSOUTHCOM Areas of Responsibility (as occurred in 
Haiti), there are useful synergies to be derived from such an 
arrangement. Air Combat Command (ACC) is developing a Concept of 
Operations to outline their vision of how this would work. USNORTHCOM, 
USSOUTHCOM, and NORAD will review ACC's proposed consolidated AOC 
construct to determine any impact to operations.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Are you providing military training, intelligence 
training, etc. to the Mexican military?
    Admiral Winnefeld. At the request of the Mexican military, we share 
lessons learned and conduct subject matter expert exchanges on a wide 
range of topics to assist them in their efforts to disrupt 
Transnational Criminal Organizations. These topics include planning, 
intelligence fusion, tactical operations and human rights. Over the 
next year, we have planned approximately 250 individual subject matter 
expert information exchange events with our Mexican military partners. 
As an example, our Asymmetrical Conflict Executive Seminars provide 
insights into operational planning to counter an irregular warfare 
threat, while also reinforcing the adherence to human rights 
principles.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. What is the role of the U.S. Coast Guard within EUCOM's 
area of responsibility?
    Admiral Stavridis. The USCG is an active and critical interagency 
partner for U.S. European Command (EUCOM), and I benefit tremendously 
from the presence of a USCG liaison officer on my staff to facilitate 
communications with USCG Headquarters and coordinate theater-wide Coast 
Guard-type security assistance.
    Major USCG operations in the region are somewhat limited based on 
the high level of professional development among the peer maritime 
services of most western European countries. Many of our European 
allies already conduct development efforts with less capable central 
and eastern European coast guard-like organizations.
    As the USCG is resource-constrained with respect to out-of-
hemisphere (OOH) assets, the last USCG deployment to EUCOM was USCGC 
DALLAS (WHEC 716), which provided humanitarian assistance in the 
aftermath of the 2008 Russia-Georgia conflict.
    The USCG also maintains a permanent 28-man Marine Safety unit in 
The Netherlands to execute U.S. flagged vessel administration, port 
state control, international port security program, international 
outreach/engagement, and environmental stewardship. Other permanent or 
semi-permanent USCG presence includes maritime advisors in Albania and 
Georgia, an exchange helicopter pilot in the United Kingdom, two 
liaison officers with U.S. Naval Forces Europe (in Italy), and an 
attache at the U.S. Embassy in Malta.
    The USCG maintains a robust International Training Division in 
Virginia that deploys small, highly effective training teams throughout 
the world, covering everything from maritime law enforcement to 
outboard engine maintenance. At any given time, there are two to four 
teams conducting such training within the EUCOM theater. The USCG also 
hosts approximately 20 European naval personnel per year for resident 
training at U.S. training facilities. These efforts are funded through 
the International Military Education and Training program.
    I foresee a growing role for the USCG within EUCOM, particularly in 
the Arctic over the next 10 to 40 years. I am working closely with U.S. 
Northern Command (NORTHCOM) and our Arctic partners to ensure the USCG 
and EUCOM are well-positioned to manage the maritime development of 
that region.
    Finally, the USCG's Seventeenth District in Alaska maintains an 
important and very positive relationship with the Russian Federation's 
Border Guard Service in the Pacific. While this effort falls mostly 
within NORTHCOM's purview, I maintain visibility of those activities.
    Mr. Scott. What is the role of ``Smart Power'' at EUCOM?
    Admiral Stavridis. Smart power describes how U.S. European Command 
(EUCOM) combines elements of our core military mission and operations 
with other collaborative engagement activities and initiatives to 
maximize our resources, potential, and positive effects in the 
protection of U.S. interests at minimal cost to the U.S. taxpayer. 
EUCOM uses smart power to bring all elements of national power to bear 
on the interconnected, complex, and dynamic problem sets we face in the 
21st century. By blending multiple aspects of national influence, we 
seek to improve our relationships and effectiveness with partners, 
allies, even potential adversaries.
    At EUCOM, we strive to leverage our military capability with in-
stride diplomacy at every opportunity. This is one of the reasons why I 
appointed a Civilian Deputy Commander at EUCOM Headquarters who, as a 
U.S. Ambassador, brings extensive and unique diplomatic expertise, 
insight, and skills to all we do at EUCOM. Her contributions add an 
invaluable lens through which we view, plan, and execute our many 
initiatives, engagements, and operations. In addition, given the 
increasing complexity of the modern security environment, I am 
convinced of the need for, and have taken active measures to 
incorporate, a whole-of-government approach to many of the challenges 
we face at EUCOM. Upon assuming command, I directed the creation of a 
separate and distinct Interagency Partnering Directorate at EUCOM 
Headquarters--on par with our Intelligence, Operations, and Strategy & 
Plans Directorates--which includes representatives from seven non-DoD 
departments and agencies. These fully integrated EUCOM team members are 
empowered to engage, coordinate, and collaborate across the EUCOM 
enterprise, bringing a unique perspective to our Combatant Command's 
operations and responsibilities and ensuring unity-of-effort across the 
full spectrum of national security issues. In addition, we maintain 
Offices of Defense Cooperation in thirty-eight countries across the 
theater.
    One recent example of smart power was EUCOM's coordination and 
execution of military airlift to bring over thirty tons of desperately 
needed fire-fighting equipment to Russia during the wildfires that 
raged across that country last summer. We provided similar assistance 
to Israel as it faced its wildfires last year as well.
    Finally, smart power also requires that we understand the breadth 
of the challenges we face every day. For that reason, I have instituted 
several programs designed to broaden our collective perspective for, as 
I tell my team often, ``no one of us is as smart as all of us working 
together.'' Those programs include a European Partnership Outreach 
Program, reaching out to influential Europeans in their capital cities; 
a EUCOM Public-Private Outreach division, engaging and leveraging the 
private sector to find innovative solutions to theater challenges; a 
Next Generation Advisory Panel, which serves as a forum to share ideas 
with young, professional, up-and-coming Europeans; a ``Distinguished 
Authors'' series at EUCOM Headquarters, which exposes my staff to 
distinguished thinkers in the national security and international 
relations arenas; a foreign language training program; and multiple 
social networking initiatives to take advantage of the unique and 
rapidly expanding connectivity available through cyberspace.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
